Case #
IN THE SUPREME COURT OF THE UNITED STATES
LARRY WILKERSON,
Petitioner;
v.
UNITED STATES OF AMERICA,
Respondent

:
:
:
:
:
:
:
:
:

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the District of Columbia
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI

Sebastian K.D. Graber, Esq.
904 Sedgefield Street
Durham, NC 27705
skdgesq@gmail.com
(540) 226-9987
Counsel of Record

TABLE OF CONTENTS
Opinion below, U.S. v. Wilkerson, 966 F.3d 828 (D.C.Cir. 2020) . . . . . . . . . . . . . 1
Judgment below (U.S. v. Wilkerson, App.No. 10-3037 (July 24, 2020)
(ECF 1853336). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
District Court Opinion, U.S. v. Wilkerson, 656 F.Supp. 2d 1
(D.D.C. 2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Order denying panel rehearing (filed October 6, 2020). . . . . . . . . . . . . . . . . . . . . 23
Order denying rehearing en banc (filed October 6, 2020) . . . . . . . . . . . . . . . . . . . 24
Juror 0552 Note (submitted September 15, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . 25
Transcript of Voir Dire regarding Juror 0552, consideration of the
issue of removal and trial court’s oral ruling (Sept. 15, 2004AM) . . . . . . . 26
Table Identifying Petitioner Wilkerson’s Requests for Limited Voir Dire
of Juror 0552 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
Excerpts of Jury Selection Transcript involving voir dire of Juror 0552
Tr. July 16, 2004AM, pg. 1, 106-110 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

United States v. Wilkerson, 966 F.3d 828 (2020)

966 F.3d 828
United States Court of Appeals,
District of Columbia Circuit.

UNITED STATES of America, Appellee
v.
Larry WILKERSON, Appellant
No. 10-3037
|
Argued February 3, 2020
|
Decided July 24, 2020
Synopsis
Background: Defendant who was convicted of nine counts
related to narcotics conspiracy and three murders moved for
a new trial. The United States District Court for the District
of Columbia, Thomas F. Hogan, Senior District Judge, 656
F.Supp.2d 1, denied the motion, and defendant appealed.

[6] evidence was sufficient to support conviction for aiding
and abetting continuing criminal enterprise (CCE) murder;
and
[7] any failure by the Government to disclose the existence
of a factual proffer in a co-conspirator's plea agreement
related to the existence of a second conspiracy was immaterial
to defendant's claim that the Government had withheld
evidence in violation of Brady, or that the continuing criminal
enterprise (CCE) murder he had been convicted of had been
disbanded.
Affirmed.

West Headnotes (26)
[1]

[2]

[3]

Discharge of juror or jury pending

Jury

Competence for Trial of Cause

The Sixth Amendment did not afford murder
defendant the right to a juror who was
determined to disregard the law, and thus,
dismissal of juror during deliberations based on
juror's expressed disagreement with the laws
and instructions that governed deliberation, and
her refusal to follow the law in coming to a
decision as to defendant's guilt or innocence, did
not violate defendant's Sixth-Amendment rights.
U.S. Const. Amend. 6; Fed. R. Crim. P. 23(b)(3).

[4] District Court did not plainly err by failing to sua sponte
instruct the jury again after striking portion of prosecution's
closing argument which suggested that defendant's decision
to go to trial proved his continuing participation in the
conspiracy;
[5] once it decided that conspiracy count could go to jury for
resolution, it was not inappropriate for district court to give
Pinkerton instruction;

Jury
trial

Action by jurors that is contrary to their
responsibilities can constitute good cause for
their dismissal. Fed. R. Crim. P. 23(b)(3).

[2] narcotics conspiracy constituted a predicate act of
racketeering necessary for violation of RICO statute;
[3] the five-year limitations period for the offense of RICO
conspiracy did not begin to run until the date of the
conspiracy's termination, or defendant's withdrawal from the
conspiracy;

Discharge of juror or jury pending

A variety of issues can constitute “good cause”
to excuse a juror, including illness, family
emergency, or, jury misconduct. Fed. R. Crim. P.
23(b)(3).

Holdings: The Court of Appeals, Srinivasan, Chief Judge,
held that:
[1] in a matter of first impression, dismissal of juror based on
her refusal to follow the law did not violate defendant's SixthAmendment rights;

Jury
trial

[4]

Criminal Law

Selection and impaneling

© 2020 Thomson Reuters. No claim to original
001 U.S. Government Works.

1

United States v. Wilkerson, 966 F.3d 828 (2020)

Because a district court, based on its unique
perspective at the scene, is in a far superior
position than a court of appeals to appropriately
consider allegations of juror misconduct, review
of a district court's dismissal of a juror is only for
an abuse of discretion. Fed. R. Crim. P. 23(b).

[5]

Jury

an exercise of erroneously seized power. U.S.
Const. Amend. 14.

[10]

Competence for Trial of Cause

Criminal Law
Functions as judges of law
and facts in general

[11]

Jury
Competency for Trial of Issues in
General

[12]

A juror intent on disregarding the law may be
dismissed for cause during voir dire. Fed. R.
Crim. P. 23(b)(3).

[8]

Jury

[9]

Constitutional Law

Verdict

Criminal Law
Functions as judges of law
and facts in general
While juries might sometimes abuse their power
and return verdicts contrary to the law and
instructions of the court, such verdicts are
lawless, a denial of due process and constitute

Discharge of juror or jury pending

Jury
trial

Discharge of juror or jury pending

An effort by the court to clarify whether a juror
intends to disregard the law or simply finds the
evidence unpersuasive runs the risk of intruding
on the secrecy of the jury's deliberations, and
thus, a court considering whether to discharge
a juror may not delve deeply into a juror's
motivations because doing so may intrude on the
secrecy of the jury's deliberations.

Competence for Trial of Cause

The Sixth Amendment provides no more right
to a juror determined to disregard the law
during deliberations than it does beforehand.
U.S. Const. Amend. 6.

Jury
trial

While intent to disregard the applicable law
constitutes a valid basis for dismissal, a court
may not dismiss a juror during deliberations
if the request for discharge stems from doubts
the juror harbors about the sufficiency of the
government's evidence. Fed. R. Crim. P. 23(b)
(3).

A jury has no more right to find a guilty
defendant not guilty than it has to find a not guilty
defendant guilty; rather, it is the duty of juries in
criminal cases to take the law from the court, and
apply that law to the facts as they find them to be
from the evidence.

[7]

Competence for Trial of Cause

The Sixth Amendment provides a defendant no
right to a verdict that is contrary to the law and
instructions of the court; on the contrary, when
a juror's intent to disregard the law comes to the
attention of the court, it would be a dereliction of
duty for a judge to remain indifferent. U.S. Const.
Amend. 6.

The Sixth Amendment constrains a district
court's discretion to dismiss a juror based on
allegations of juror misconduct. U.S. Const.
Amend. 6; Fed. R. Crim. P. 23(b).

[6]

Jury

[13]

Jury
trial

Discharge of juror or jury pending

In determining whether or not to deny a juror's
request for dismissal due to evidence-based
concerns, the pertinent question is whether there
is a tangible or appreciable possibility that the
request is based on an evidence-based concern
that the record evidence discloses, not merely
whether there is literally any possibility, even just
a theoretical one.

© 2020 Thomson Reuters. No claim to original
002 U.S. Government Works.

2

United States v. Wilkerson, 966 F.3d 828 (2020)

as to a particular defendant, until that defendant's
withdrawal.
[14]

Racketeer Influenced and Corrupt
Conspiracies
Organizations
Narcotics conspiracy constituted a predicate
act of racketeering necessary for violation of
RICO statute; broad language of the statute
encompassed related conspiracy offenses. 18
U.S.C.A. §§ 1962(c), 1962(d); Comprehensive
Drug Abuse Prevention and Control Act of 1970
§§ 401, 406, 21 U.S.C.A. §§ 841(a)(1), 846.

[15]

Criminal Law

[20]

Criminal Law

[21]

[22]

When a defendant fails to object to an
alleged error, the defendant bears the burden of
demonstrating “plain error” on appeal.

[17]

Criminal Law

Criminal Law
general

Continuing offenses

Commission of offense in

[23]

The five-year statute of limitations applicable to
RICO conspiracy begins to run when a defendant
last commits the “offense” of RICO conspiracy.
18 U.S.C.A. § 3282.

[19]

Criminal Law

Criminal Law
court

Requests for correction by

Conspiracy
Conspiracy

Particular Subjects of

Once it decided that conspiracy count could go
to jury for resolution, it was not inappropriate
for district court to give Pinkerton instruction,
that jury could convict defendant of substantive
counts either based upon his own acts or, if jury
found that defendant was conspirator, based on
acts of his co-conspirators.

Continuing offenses

The offense in conspiracy prosecutions, for
limitations purposes, is not the initial act of
agreement, but the banding-together against
the law effected by that act, and that offense
continues until termination of the conspiracy or,

Continuing offenses

District court did not plainly err by failing to
sua sponte instruct the jury again after striking
portion of prosecution's closing argument in
narcotics conspiracy and murder prosecution
which suggested that defendant's decision to
go to trial proved his continuing participation
in the conspiracy, given the court's previous
instruction, the weight of the evidence of
the defendant's continuing participation in the
conspiracy, and the comparative dearth of
evidence of his purported withdrawal.

The five-year limitations period for the offense
of RICO conspiracy did not begin to run until
the date of the conspiracy's termination, or
defendant's withdrawal from the conspiracy. 18
U.S.C.A. § 3282.

[18]

Criminal Law

Absent withdrawal, a defendant continues to
commit the offense of RICO conspiracy until the
date of the conspiracy's termination; it follows
that a RICO conspiracy count is timely as long
as the government charges the defendant within
five years of that date. 18 U.S.C.A. § 3282.

Review De Novo

Burden of showing error

Continuing conspiracy

A defendant who has joined a conspiracy
continues to violate the law through every
moment of the conspiracy's existence.

In general, the district court's legal conclusion
concerning the scope of a conspiracy is reviewed
de novo.

[16]

Conspiracy

[24]

Homicide

Parties to offense

© 2020 Thomson Reuters. No claim to original
003 U.S. Government Works.

3

United States v. Wilkerson, 966 F.3d 828 (2020)

Evidence was sufficient to support conviction
for aiding and abetting continuing criminal
enterprise (CCE) murder; a rational trier of fact
could have found that members of the conspiracy
murdered one victim in retaliation for an attack
on one of its own, the defendant, and similarly,
a rational trier of fact could have found that
members of the conspiracy murdered a second
victim as part of a botched plan to punish his
partner for pulling out of a drug deal, and
because such murders were committed with the
conspiracy's resources to stifle threats to its
members or its deals, they bore a substantive
connection to the continuing criminal enterprise.

Attorneys and Law Firms
Sebastian K.D. Graber, appointed by the court, argued the
cause for appellant. With him on the briefs was Timothy Cone,
appointed by the court.
Nicholas P. Coleman, Assistant U.S. Attorney, argued the
cause for appellee. With him on the brief were Jessie K.
Liu, U.S. Attorney, at the time the brief was submitted, and
Elizabeth Trosman, Washington, DC, and Suzanne Grealy
Curt, Assistant U.S. Attorneys.
Before: Srinivasan, Chief Judge, Henderson, Circuit Judge,
and Randolph, Senior Circuit Judge.
Opinion

[25]

Criminal Law

Continuing offenses

Any failure by the Government to disclose
the existence of a factual proffer in a coconspirator's plea agreement related to the
existence of a second conspiracy was immaterial
to defendant's claim that the Government had
withheld evidence in violation of Brady, or that
the continuing criminal enterprise (CCE) murder
he had been convicted of had been disbanded,
and thus, that the five-year statute of limitations
had run before he was charged; criminals could
participate in more than one conspiracy, and the
fact that the co-conspirator had participated in
a second conspiracy was not inconsistent with
the persistence of the conspiracy defendant was
convicted of participating in. 18 U.S.C.A. §
3282.

[26]

Criminal Law
Error

Parties Entitled to Allege

Generally a defendant does not have standing to
complain on appeal of an erroneous ruling on the
scope of the privilege of a witness.

*831 Appeal from the United States District Court for the
District of Columbia (No. 1:00-cr-00157-15)

Srinivasan, Chief Judge:
*832 In November 2000, a grand jury indicted appellant
Larry Wilkerson and fifteen codefendants on 158 counts
related to a violent narcotics-distribution conspiracy that
operated in D.C. throughout the 1990s. Appellant was
charged with conspiracy to distribute and possess with intent
to distribute cocaine, cocaine base, heroin, and marijuana,
conspiracy to participate in a racketeer-influenced corrupt
organization, four counts of aiding and abetting first-degree
murder, four corresponding counts of aiding and abetting a
continuing criminal enterprise (CCE) murder, and one count
of aiding and abetting first-degree felony murder.
Many of appellant's codefendants pled guilty and some also
agreed to cooperate with the government. The rest went to
trial in groups. “Group One” consisted of six defendants,
including the conspiracy's leaders, Kevin Gray and Rodney
Moore. That trial concerning the Gray-Moore conspiracy
ended in guilty verdicts and substantial sentences, which
this court affirmed in part and vacated in part in United
States v. Moore, 651 F.3d 30 (D.C. Cir. 2011), aff'd in part
sub nom. Smith v. United States, 568 U.S. 106, 133 S.Ct.
714, 184 L.Ed.2d 570 (2013). “Group Two” consisted of
six more defendants and similarly resulted in guilty verdicts
and lengthy sentences, which this court affirmed in part and
reversed in part in United States v. McGill, 815 F.3d 846, 877
(D.C. Cir. 2016), cert. denied, ––– U.S. ––––, 138 S. Ct. 58,
199 L.Ed.2d 43 (2017).
Appellant was tried separately from his codefendants. On
September 22, 2004, a jury found appellant guilty on all
counts except one count of aiding and abetting first-degree

© 2020 Thomson Reuters. No claim to original
004 U.S. Government Works.

4

United States v. Wilkerson, 966 F.3d 828 (2020)

murder and a corresponding count of aiding and abetting
CCE murder. On April 20, 2010, the district court sentenced
appellant to life imprisonment.
Appellant now appeals. He raises a number of challenges,
including to the district court's dismissal of a juror during
deliberations and to the district court's rejection of his motion
to dismiss the RICO conspiracy count as time-barred. We
reject his challenges and affirm his convictions and sentence.

about it. And I cannot go into your deliberations or what's
going on in the jury room. You understand that? I don't
want to hear anything about the deliberations or intrude
in any way, but because of your note I need to ask you
a couple of questions. ... You said that you request to be
replaced because you strongly disagree with the laws and
instructions that govern this deliberation and you cannot
follow them. In other words, I just need to ask you when
you make that statement you mean the instructions and the
law that I've given to you in this case we're talking about?
JUROR 0552: Yes.

I.
We first consider the district court's dismissal of a juror who,
after deliberations began, expressed her disagreement with
the applicable law and her inability to apply it. Appellant
contends that the district court's dismissal of the juror violated
his Sixth-Amendment right to conviction by a unanimous
jury. We conclude that the district court did not err.

A.
On September 8, 2004, after two months of trial, the jury
began deliberations. United States v. Wilkerson, 656 F. Supp.
2d 1, 2 (D.D.C. 2009) (“Wilkerson I”). Three-and-a-half
*833 days into deliberations, the district judge received the
following handwritten note from a juror:
“I, juror number 0552, request that I be replaced with an
alternate in the deliberation of Larry Wilkerson. I strongly
disagree with the laws and instructions that govern this
deliberation, and I cannot follow them. Because I feel
so strongly about this, it may affect my decisions in this
matter. In other words, a possible bias decision. In addition,
I am experiencing emotional and mental distress. For this
alone, I felt it was enough for me to ask for a replacement. I
would not be asking for this request, if I didn't feel that this
was a serious issue. Please take this request under strong
consideration. I apologize, for the delay in this request,
but if it is at all possible please remove me from this
deliberation. Sincerely, Juror 0552.”
Id.
The district court decided to ask Juror 0552 about her note.
The following colloquy ensued:
COURT: All right. Thank you. In your note I just want
to review it with you and ask you a couple of questions

COURT: And although you took an oath to follow the
instructions and the law you feel you cannot do so; is that
fair?
JUROR 0552: Yes.
COURT: And you were very fair about it. You wrote I feel
so strongly about this it may affect my decisions in this
matter. In other words, I may have possible bias decision.
And because you're disagreeing with the law, is that what
you're saying?
JUROR 0552: Yes.
COURT: You also said you're feeling emotional and
mental distress. You felt that alone was enough to ask
for replacement. Is that just because of deliberations you
mean? I don't want to get -JUROR 0552: The whole thing.
COURT: The whole case?
JUROR 0552: The whole case.
COURT: Let me ask you about the law. You've read the
instructions. You've heard my law [sic] we're talking about.
And it's your opinion you cannot follow the law and apply
it in this case? Is that what you're saying?
JUROR 0552: I cannot follow it because I do not agree with
it.
COURT: You do not agree with the law?
JUROR 0552: No.
COURT: I don't want to get in your deliberations now.
JUROR 0552: Okay.

© 2020 Thomson Reuters. No claim to original
005 U.S. Government Works.

5

United States v. Wilkerson, 966 F.3d 828 (2020)

COURT: You just don't agree with the law?
JUROR 0552: Uh-uh.
COURT: And you came to this belief after seriously
considering you say here that you didn't, you know, you
wouldn't ask for this but you didn't feel you felt it was such
a serious issue?
JUROR 0552: It is serious. We're dealing with somebody's
life.
*834 COURT: And under the law that I've given you you
disagree with that? Is that what you're saying?
JUROR 0552: Yes.
Id. at 3.
After some further discussion with counsel, the district court
decided to dismiss Juror 0552. Id. Based on Juror 0552's
note, the above colloquy with her, the brevity of the jury's
deliberations relative to the length and complexity of the trial,
and the lack of any substantive jury questions, the district
court found as a matter of fact that Juror 0552 sought to
be dismissed because she disagreed with the applicable law
rather than because of any concerns about the evidence. Trial
Tr. 36–38, Sept. 15, 2004, 8 J.A. 2551–53.
Instead of proceeding with eleven jurors, the district court
replaced Juror 0552 with an alternate. Wilkerson I, 656 F.
Supp. 2d at 4 n.3. On September 22, 2004, the reconstituted
jury returned guilty verdicts on all counts except one firstdegree-murder count and an associated CCE murder count.
Appellant moved for a new trial, arguing that the district court
had violated his Sixth-Amendment rights by dismissing Juror
0552. The district court denied the motion. Id. at 10–11.

B.
Appellant renews his contention that the dismissal of
Juror 0552 violated his Sixth-Amendment rights. Appellant
challenges both the district court's finding that Juror 0552's
concerns were with the law, not the evidence, and the district
court's conclusion that disagreement with the law is a valid
ground for dismissal. We disagree with both challenges. We
hold that intent to disregard the law constitutes a valid ground
for dismissing a juror and that the district court permissibly
dismissed Juror 0552 on that basis.

1.
[1] [2] Federal Rule of Criminal Procedure 23(b) authorizes
dismissal of a juror during deliberations for “good cause.”
Fed. R. Crim. P. 23(b)(3). “A variety of issues” can constitute
“good cause” to excuse a juror, “including illness, family
emergency, or, ... jury misconduct.” United States v. McGill,
815 F.3d 846, 866 (D.C. Cir. 2016) (internal quotation
marks omitted). “[A]ction by jurors that is contrary to
their responsibilities” can constitute good cause. Id. (internal
quotation marks omitted).
[3] [4] [5] Because a district court, “based on its unique
perspective at the scene, is in a far superior position than
[a court of appeals] to appropriately consider allegations of
juror misconduct,” we review a district court's dismissal of
a juror “only for an abuse of discretion.” Id. at 867 (quoting
United States v. Boone, 458 F.3d 321, 329 (3d Cir. 2006).
The Sixth Amendment, however, constrains that discretion.
Id. This case presents a question we have previously left
open: whether the Sixth Amendment precludes dismissing
a juror “for refusing to apply the relevant substantive law.”
United States v. Brown, 823 F.2d 591, 597 (D.C. Cir. 1987).
We now answer that question in the negative: the Sixth
Amendment does not afford a defendant the right to a juror
who is determined to disregard the law.
[6]
[7] We have already decided as much with regard
to trial proceedings that come before jury deliberations. In
particular, we have held that the Sixth Amendment provides
no right to a jury instruction on nullification. United States
v. Dougherty, 473 F.2d 1113, 1130–37 (D.C. Cir. 1972). As
we later explained, a “jury has no more ‘right’ to find a
‘guilty’ defendant ‘not guilty’ than it has to find a ‘not guilty’
defendant ‘guilty.’ ” *835 United States v. Washington, 705
F.2d 489, 494 (D.C. Cir. 1983). Rather, “it is the duty of juries
in criminal cases to take the law from the court, and apply that
law to the facts as they find them to be from the evidence.”
Sparf v. United States, 156 U.S. 51, 102, 15 S.Ct. 273, 39
L.Ed. 343 (1895). Were it otherwise, juries would “become
a law unto themselves,” such that “our government [would]
cease to be a government of laws, and [would] become a
government of men.” Id. at 101, 103, 15 S.Ct. 273. For the
same reasons, a juror intent on disregarding the law may be
dismissed for cause during voir dire. See, e.g., Adams v. Texas,
448 U.S. 38, 45, 100 S.Ct. 2521, 65 L.Ed.2d 581 (1980).

© 2020 Thomson Reuters. No claim to original
006 U.S. Government Works.

6

United States v. Wilkerson, 966 F.3d 828 (2020)

[8] The Sixth Amendment provides no more right to a juror
determined to disregard the law during deliberations than it
does beforehand. The Second Circuit thus has “categorically
reject[ed] the idea that, in a society committed to the rule of
law, ... courts may permit [jury nullification of the law] to
occur when it is within their authority to prevent.” United
States v. Thomas, 116 F.3d 606, 614 (2d Cir. 1997). The court
reasoned that, “[i]nasmuch as no juror has a right to engage
in nullification” of the applicable law, district courts “have
the duty to forestall or prevent such conduct” if it can be
done without “interfer[ing] with guaranteed rights or the need
to protect the secrecy of jury deliberations.” Id. at 616. The
Third, Ninth, and Eleventh Circuits agree, and we are aware of
no court of appeals to conclude otherwise. See United States
v. Fattah, 914 F.3d 112, 149 (3d Cir. 2019); United States v.
Christensen, 828 F.3d 763, 806 (9th Cir. 2015); United States
v. Oscar, 877 F.3d 1270, 1287 (11th Cir. 2017). We join our
sister circuits’ unanimous view.

F.3d at 621. “[A]n effort to act in good faith may easily be
mistaken” for “purposeful disregard of the law.” Id. at 618.
[12] Moreover, an effort by the court to clarify whether a
juror intends to disregard the law or simply finds the evidence
unpersuasive runs the risk of “intrud[ing] on the secrecy
of the jury's deliberations.” *836 Brown, 823 F.2d at 596.
Navigating the tension between the “duty to dismiss jurors for
misconduct” and the “equally, if not more, important [duty to]
safeguard[ ] the secrecy of jury deliberations” is a “delicate
and complex task.” Thomas, 116 F.3d at 618. “[A] court may
not delve deeply into a juror's motivations because [doing
so may] intrude on the secrecy of the jury's deliberations.”
Brown, 823 F.2d at 596.

Cognizant of those competing considerations, this court in
Brown decided to “err[ ] on the side of Sixth-Amendment
caution.” McGill, 815 F.3d at 867. We held that, “if the
record evidence discloses any possibility that the request to
[9] [10] It is true, as we have recognized, that juries might discharge stems from the juror's view of the sufficiency of
the government's evidence, the court must deny the request.”
sometimes “abuse their power and return verdicts contrary to
Brown, 823 F.2d at 596. Applying that standard to the facts
the law and instructions of the court.” Washington, 705 F.2d at
494. But “[s]uch verdicts are lawless, a denial of due process
in Brown, we rejected the juror's dismissal because the record
“indicate[d] a substantial possibility that [the juror] requested
and constitute an exercise of erroneously seized power.” Id.
to be discharged because he believed that the evidence offered
The Sixth Amendment provides a defendant no right to such
an outcome. On the contrary, when a juror's intent to disregard
at trial was inadequate to support a conviction.” Id. Several
the law comes to the attention of the court, “it would be a
other circuits have since adopted our approach in Brown. See,
dereliction of duty for a judge to remain indifferent.” Thomas,
e.g., United States v. Kemp, 500 F.3d 257, 304 (3d Cir. 2007);
116 F.3d at 616. Consequently, we hold that dismissal of a
United States v. Abbell, 271 F.3d 1286, 1302 (11th Cir. 2001);
juror during deliberations for intent to disregard the law does
United States v. Symington, 195 F.3d 1080, 1087 (9th Cir.
not violate a defendant's Sixth-Amendment rights.
1999); Thomas, 116 F.3d at 622.

2.
[11] While intent to disregard the applicable law constitutes
a valid basis for dismissal, “a court may not dismiss a
juror during deliberations if the request for discharge stems
from doubts the juror harbors about the sufficiency of the
government's evidence.” Brown, 823 F.2d at 596. If it were
otherwise, “the government [could] obtain a conviction even
though a member of the jury ... thought that the government
had failed to prove its case,” rendering a defendant's SixthAmendment right to a unanimous verdict “illusory.” Id.;
accord Thomas, 116 F.3d at 621. A court thus might
face the “often difficult distinction between the juror who
favors acquittal because he is purposefully disregarding the
court's instructions on the law, and the juror who is simply
unpersuaded by the Government's evidence.” Thomas, 116

The district court here applied the Brown standard, finding
no substantial possibility that Juror 0552's request to be
dismissed stemmed in any way from her views about “the
sufficiency of the government's evidence.” Brown, 823 F.2d
at 596. Rather, the juror asked “to be replaced because
she strongly disagrees with the law[s] that govern this
deliberation and cannot follow them.” Trial Tr. 37, Sept. 15,
2004, 8 J.A. 2552. When defense counsel suggested that the
juror might have had evidence-based reservations about “the
law applied to the facts,” as opposed to concerns about the
law alone, the court rejected that possibility: “Her note was
very clear. She wants to be relieved of the duty because
she disagree[s] with the law.” Id. at 32, 8 J.A. 2547. And
she so explained, the court found, “without any reference
whatsoever to any evidentiary concerns or the strength of
the government's evidence or the dissatisfaction with the
government's presentation of the case.” Id. at 38, 8 J.A. 2553.

© 2020 Thomson Reuters. No claim to original
007 U.S. Government Works.

7

United States v. Wilkerson, 966 F.3d 828 (2020)

Instead, “her only expression [was] that she cannot follow the
law and she disagrees with it and she reaffirmed that orally.”
Id. The court was “satisfied beyond a reasonable doubt as
a judge of her credibility from her statements in the letter
and her statements on the record that she will not follow the
law[s], that she strongly disagrees with them and she'll not
follow them contrary to her oath of office.” Id. The court thus
found no substantial possibility of an evidence-based concern.
Id.
We see no basis to set aside the district court's finding
to that effect. As the court explained, when Juror 0552
sent her note, the jury had yet to submit any substantive
questions and had been deliberating for only three days,
after a months-long trial involving an extensive amount of
evidence covering numerous counts and a correspondingly
complex set of instructions and verdict form. That context, the
court understandably believed, was not suggestive of a holdout juror based on the evidence. And more importantly, the
juror's statements did not indicate any evidentiary concerns.
As the court explained, her note stated unambiguously
that she disagreed with the law without referencing any
evidentiary concerns. In response to the court's questioning,
she confirmed that she disagreed with the law seven times,
never once referencing the evidence, much less suggesting
any evidence-based concerns.
*837 To be sure, in her note, Juror 0552 conveyed that
“[i]n addition” to her disagreement with the law, she was
“experiencing emotional and mental distress.” Wilkerson I,
656 F. Supp. 2d at 2. When the district court asked whether her
distress was “because of deliberations,” she replied that it was
“the whole thing,” i.e., “the whole case.” Id. at 3. Appellant
asserts that the whole case includes the evidence. But Juror
0552's statement that her emotional distress related to “the
whole thing” does not evince an evidentiary concern as such
—i.e., it did not amount to “record evidence disclos[ing] a
possibility that [she] believe[d] that the government ha[d]
failed to present sufficient evidence to support a conviction.”
Brown, 823 F.2d at 597. The district court understood her
distress to stem from “concern[s] there was a lot at stake and
she said a life at stake,” not from any concerns associated with
the evidence. Trial Tr. 38, Sept. 15, 2004, 8 J.A. 2553. On
that record, the court did not err in discerning no substantial
possibility that her distress derived from an evidentiary
concern. (After the trial, it became apparent that the juror
had “fallen for” and become “fixated” with appellant, and she
visited him in jail some fifty times. United States v. Wilkerson,
656 F Supp. 2d 11, 16–17 (D.D.C. 2009) (“Wilkerson II”)).

The contrast between the record in this case and the
one in Brown is instructive. In Brown, the jury had been
deliberating for five weeks when it sent the following note:
“When is a defendant not guilty? When all jurors give
a unanimous verdict vote of not guilty or, at least, one
gives a vote of not guilty?” Brown, 823 F.2d at 594. The
district court instructed the jury to continue deliberations
to reach a unanimous verdict. Id. Later that day, the court
received another note, reading: “I Bernard Spriggs am not
able to discharge my duties as a member of this jury.” Id.
When the court questioned Spriggs, he indicated that he
had concerns with “the way [the act is] written and the
way the evidence has been presented,” and that, had “the
evidence [been] presented in a fashion in which the law
is written, then, maybe, [he] would be able to discharge
[his] duties.” Id. at 597 (emphasis in original). We held
that Spriggs's dismissal violated the defendants’ right to
conviction by a unanimous jury, reasoning that we could
not conclude “with any conviction” that Spriggs's request
“stemmed from something other than this view” of the
evidence. Id. (emphasis in original). Because the “record
evidence in th[e] case indicate[d] a substantial possibility”
that Spriggs's request stemmed from evidentiary doubts, his
dismissal violated the defendants’ Sixth-Amendment rights.
Id. at 596.
The record in this case is markedly different. First, in Brown,
Spriggs's note came five weeks into deliberations and on the
same day the court instructed the jury to keep deliberating
after the jury asked whether it had to be unanimous. Id. at
594. That context suggested that Spriggs may have been a
holdout. By contrast, Juror 0552's note came only three days
after a two months-long trial covering many crimes over
many years and the jury had yet to send a single substantive
note. Second, in Brown, when asked about his disagreement
with the law, Spriggs referenced his dissatisfaction with the
evidence and even indicated that he would have had no
problem if the evidence had been presented differently. Id.
at 597. By contrast, Juror 0552 unambiguously indicated her
disagreement with the law in her note without any reference to
evidentiary concerns, and then confirmed that disagreement
seven times in her colloquy with the district court without
once mentioning evidentiary issues. In the context of that
record, the district court was under no obligation *838
to keep her on the jury even though she repeatedly and
unequivocally stated that she strongly disagreed with the
applicable law and could not follow it.

© 2020 Thomson Reuters. No claim to original
008 U.S. Government Works.

8

United States v. Wilkerson, 966 F.3d 828 (2020)

Lastly, we note an issue appellant raised in the district court.
In Brown, as noted, we held that a juror cannot be dismissed
if “the record evidence discloses any possibility”—or,
alternatively, “a” possibility—“that the request to discharge
stems from the juror's view of the sufficiency of the
government's evidence.” 823 F.2d at 596–97. And then in
applying that standard, we said that the “record evidence in
th[e] case indicate[d] a substantial possibility” that the juror
“believed that the evidence offered at trial was inadequate
to support a conviction.” Id. at 596. The district court in
this case, echoing that language, found that the record here
indicated no such “substantial possibility.” Trial Tr. 38, Sept.
15, 2004, 8 J.A. 2553. But the language in Brown might
raise the question, does our standard call for denying a
juror's dismissal when there is “any” or “a” possibility of
an evidence-based concern or instead only when there is a
“substantial” such possibility, insofar as there is a meaningful
difference among those formulations?

time-barred. We hold that the RICO conspiracy count was not
time-barred.

Appellant raised that issue in the district court in his motion
for a new trial. Wilkerson I, 656 F. Supp. 2d at 6–8. The district
court understood Brown to call for examining whether there
is a “tangible possibility” as opposed to “just a speculative
hope.” Id. at 7 (quoting Abbell, 271 F.3d at 1302 n.14); accord
Kemp, 500 F.3d at 304; Symington, 195 F.3d at 1087 n.5. The
court found no such possibility indicated by the record in this
case. Wilkerson I, 656 F. Supp. 2d at 8. The court further said
that it “would be helpful for the Court of Appeals to clarify
the applicable standard in this Circuit.” Id.

In November 2002, the government filed a retyped
indictment, which was largely the same as the original
indictment but with some predicate racketeering acts
that *839 had been dismissed removed. In June 2003,
appellant moved to dismiss the RICO conspiracy count from
that indictment as time-barred. The district court denied
appellant's motion.

[13] We do so now, and we agree with the district court
that the pertinent question is whether there is a “tangible”
or “appreciable” possibility, not merely whether there is
“literal[ly] ‘any possibility,’ ” even just a theoretical one.
Id. That understanding follows naturally from our repeated
recognition in Brown that the possibility of a juror's evidencebased concerns must be one that “the record evidence
discloses.” 823 F.2d at 596–97. Here, the district court
made the requisite determination: that “the record before [it]
indicated no appreciable possibility that Juror 0552 harbored
concerns about the evidence.” Wilkerson I, 656 F. Supp. 2d at
5 n.5. We see no basis to reject the court's assessment.

II.
We next address appellant's claim that the district court erred
in not dismissing the RICO conspiracy count against him as

A.
The statute of limitations applicable to RICO conspiracy is
five years. Smith v. United States, 568 U.S. 106, 111 n.4, 133
S.Ct. 714, 184 L.Ed.2d 570 (2013). Here, because the grand
jury indicted appellant on November 17, 2000, the cutoff for
statute of limitations purposes was November 17, 1995.
The original November 2000 indictment alleged sixty-three
racketeering acts in support of the RICO conspiracy count,
including many after 1995. The indictment alleged appellant's
specific involvement, however, in only seven predicate acts,
one of which—narcotics conspiracy—the indictment alleged
he committed after 1995.

While that motion was pending, in July 2003, the district
court severed appellant's trial from that of his codefendants.
Accordingly, prior to trial, in July 2004, the government filed
a second retyped indictment, deleting predicate racketeering
acts that did not specifically reference appellant. The second
retyped indictment's RICO conspiracy count thus alleged
seven predicate acts of racketeering, only one of which—
narcotics conspiracy—appellant allegedly committed after
1995. The verdict form submitted to the jury also referenced
only those seven predicate acts.

B.
[14] Appellant contends that narcotics conspiracy does not
constitute a predicate act of racketeering, and that even if
it does, RICO conspiracy requires two predicate acts of
racketeering within the statute of limitations period. We
disagree on both scores.
[15]
[16] In general, we review the district court's legal
conclusion concerning the scope of the conspiracy de novo.

© 2020 Thomson Reuters. No claim to original
009 U.S. Government Works.

9

United States v. Wilkerson, 966 F.3d 828 (2020)

United States v. Hitt, 249 F.3d 1010, 1016 (D.C. Cir. 2001).
But when a defendant fails to object to an alleged error, the
defendant bears the burden of demonstrating “plain error” on
appeal. United States v. Moore, 651 F.3d 30, 50 (D.C. Cir.
2011). Although the government contends that the plain-error
standard applies here, we need not decide that issue because
we conclude that the district court did not err in the first place.
We hold that narcotics conspiracy constitutes a predicate act
of racketeering and that a RICO conspiracy count is timely if
the government charges the defendant within five years of the
conspiracy's termination or the defendant's withdrawal.
A person commits the offense of RICO conspiracy by
conspiring to “conduct or participate ... in the conduct of [an
interstate] enterprise's affairs through a pattern of racketeering
activity.” 18 U.S.C. § 1962(c)–(d). Section 1961 lists
offenses that constitute racketeering activity, including “any
offense involving ... the felonious manufacture, importation,
receiving, concealment, buying, selling, or otherwise dealing
in a controlled substance ... punishable under any law
of the United States.” Id. § 1961(1)(D). Here, both the
first and second retyped indictments charged appellant
with conspiracy to “manufacture, distribute, or dispense, or
possess with intent to manufacture, distribute, or dispense, a
controlled substance.” See 21 U.S.C. §§ 841(a)(1), 846.
By its plain terms, section 1961(1)(D)’s language—“any
offense involving ... dealing in a controlled substance”—
encompasses a Section 846 offense—conspiracy to
“distribute, or dispense ... a controlled substance.” The
structure of section 1961 bolsters that conclusion: section
1961's “subsections (B) and (C) ... conspicuously lack the
broad ‘any offense involving’ language of subsection (D),”
instead limiting their predicate acts to those “indictable
under specifically enumerated sections of the criminal code.”
United States v. Weisman, 624 F.2d 1118, 1124 (2d Cir.
1980). Several circuits have thus held that section 1961(1)
(D) encompasses related conspiracy offenses. See United
States v. Echeverri, 854 F.2d 638, 648–49 (3d Cir. 1988);
United States v. Phillips, 664 F.2d 971, 1015 (5th Cir. 1981);
Weisman, 624 F.2d at 1124. We agree and now hold that a
narcotics conspiracy offense constitutes racketeering activity
under section 1961(1)(D).
[17] Appellant argues in the alternative that, even if narcotics
conspiracy constitutes *840 a predicate act of racketeering,
the RICO conspiracy count was time-barred because it alleged
his specific involvement in only one rather than two predicate
acts within the limitations period. We disagree.

[18]
[19]
[20] The statute of limitations applicable to
RICO conspiracy bars prosecution unless an indictment is
returned “within five years next after such offense shall have
been committed.” 18 U.S.C. § 3282. Thus, the statute of
limitations begins to run when a defendant last commits the
“offense” of RICO conspiracy. A defendant who conspires
to participate in an enterprise's affairs “through a pattern
of racketeering activity,” 18 U.S.C. § 1962(c)—i.e., through
commission of at least two predicate acts of racketeering, id.
§ 1961(5)—commits the offense of RICO conspiracy, id. §
1962(d). As the Supreme Court has explained, however, “the
offense in ... conspiracy prosecutions [is] not the initial act of
agreement, but the banding-together against the law effected
by that act.” Smith, 568 U.S. at 113, 133 S.Ct. 714. That
offense “continues until termination of the conspiracy or, as
to a particular defendant, until that defendant's withdrawal.”
Id. Put simply, “a defendant who has joined a conspiracy
continues to violate the law through every moment of [the
conspiracy's] existence.” Id. at 111, 133 S.Ct. 714 (citation
omitted).
[21] Absent withdrawal, then, a defendant continues to
commit the offense of RICO conspiracy until the date of the
conspiracy's termination. It follows that a RICO conspiracy
count is timely as long as the government charges the
defendant within five years of that date. See United States v.
Saadey, 393 F.3d 669, 678 (6th Cir. 2005); United States v.
Gonzalez, 921 F.2d 1530, 1547–48 (11th Cir. 1991); United
States v. Torres Lopez, 851 F.2d 520, 525 (1st Cir. 1988);
United States v. Persico, 832 F.2d 705, 713–14 (2d Cir. 1987).
Here, as noted, both the first and second retyped indictments
alleged appellant's participation in a narcotics conspiracy as
a predicate racketeering act within the limitations period.
Thus, both indictments alleged appellant's commission of the
offense of RICO conspiracy within the limitations period.

III.
Appellant raises five additional challenges. He contends
(i) that certain statements made by witnesses and the
prosecution deprived him of a fair trial; (ii) that the district
court improperly gave a Pinkerton instruction; (iii) that the
evidence for two of the CCE murder counts was insufficient;
(iv) that the prosecution withheld Brady evidence and
advanced inconsistent theories of prosecution; and (v) that the
testimony of a witness named Donney Alston was secured in

© 2020 Thomson Reuters. No claim to original
010 U.S. Government Works.

10

United States v. Wilkerson, 966 F.3d 828 (2020)

violation of Alston's Fifth Amendment rights. None of those
challenges has merit.
[22] Appellant first contends that certain statements made
by witnesses and referenced in the prosecution's closing
argument deprived him of a fair trial. Appellant particularly
emphasizes one statement that suggested that his decision
to go to trial proved his continuing participation in
the conspiracy. Appellant objected to that testimony and
requested the district court to strike it, which the court did.
Appellant did not object to the prosecution's reference to that
testimony in closing argument. Because appellant failed to
preserve any claim for relief beyond striking the testimony,
see United States v. Tate, 630 F.3d 194, 197 (D.C. Cir. 2011);
United States v. Taylor, 514 F.3d 1092, 1095–96 (10th Cir.
2008), we review his claim for plain error, Moore, 651 F.3d
at 50.
He cannot meet that standard. It is neither “clear” nor
“obvious” that the district *841 court should have sua
sponte granted curative action beyond striking the challenged
testimony. United States v. Olano, 507 U.S. 725, 734, 113
S.Ct. 1770, 123 L.Ed.2d 508 (1993). Nor did the court's
failure to sua sponte instruct the jury again or take other
curative action following the prosecution's single reference
thereto affect appellant's substantial rights, given the court's
previous instruction and the weight of the evidence of
appellant's continuing participation in the conspiracy and the
comparative dearth of evidence of his purported withdrawal.
See McGill, 815 F.3d at 890; Moore, 651 F.3d at 54.
[23] Appellant next contends that, because of that testimony,
the district court should have dismissed the narcotics
conspiracy count, and that the court further erred in giving an
instruction under Pinkerton v. United States, 328 U.S. 640, 66
S.Ct. 1180, 90 L.Ed. 1489 (1946), as to that conspiracy count
and the RICO conspiracy count. But as discussed, the district
court did not err in sending those conspiracy counts to the jury.
And “once the trial court determined to send the conspiracy
charge[s] to the jury, it could not have been error to also give
a Pinkerton instruction.” United States v. Henning, 286 F.3d
914, 920 (6th Cir. 2002).
[24] Appellant challenges the sufficiency of the evidence
for the CCE murders of Christopher Burton and Scott
Downing. In particular, appellant challenges the sufficiency
of the connection between those murders and the continuing
criminal enterprise. Assuming such a substantive connection
is required, see, e.g., United States v. Aguilar, 585 F.3d 652,

658 (2d Cir. 2009), a “rational trier of fact could have found”
it here, United States v. Wahl, 290 F.3d 370, 375 (D.C. Cir.
2002). A rational trier of fact could have found that members
of the Gray-Moore conspiracy murdered Christopher Burton
in retaliation for an attack on one of its own (appellant).
Similarly, a rational trier of fact could have found that
members of the conspiracy murdered Scott Downing as part
of a botched plan to punish his partner for pulling out of a
drug deal. Such murders, committed with the conspiracy's
resources to stifle threats to its members or its deals, bear a
substantive connection to the continuing criminal enterprise.
See United States v. Aquart, 912 F.3d 1, 58 (2d Cir. 2018);
Aguilar, 585 F.3d at 658; United States v. Jones, 101 F.3d
1263, 1267 (8th Cir. 1996).
[25] Appellant next contends that the government withheld
evidence in violation of Brady v. Maryland, 373 U.S. 83, 83
S.Ct. 1194, 10 L.Ed.2d 215 (1963), and relied on inconsistent
theories in its prosecutions in violation of his due-process
rights. Both contentions rely on the same post-trial discovery:
the factual proffer in Rodman Lee's plea agreement, which
described Lee as the leader of a conspiracy counting Gray
among its members. United States v. Wilkerson, 656 F.
Supp. 2d 22, 31 (D.D.C. 2009) (“Wilkerson III”). Appellant
contends that that evidence was material to his claim that
the Gray-Moore conspiracy had disbanded prior to 1995 and
is inconsistent with the prosecution's theory that Lee joined
the Gray-Moore conspiracy. Both contentions fail for the
same reason: “[c]riminals may of course participate in more
than one conspiracy.” Moore, 651 F.3d at 65. Evidence that
Gray participated in the Lee conspiracy is not inconsistent
with the persistence of the Gray-Moore conspiracy. Such
evidence is immaterial, as we held for the same factual proffer
for several of appellant's original co-defendants, id., and the
prosecution's theories were not inconsistent, as the district
court held, Wilkerson III, 656 F. Supp. 2d at 32–34.
*842 [26] Finally, Appellant contends that his indictment
unlawfully relied on testimony from Donney Alston obtained
in violation of Alston's Fifth Amendment privilege. But
generally “a defendant does not have standing to complain of
an erroneous ruling on the scope of the privilege of a witness.”
Ellis v. United States, 416 F.2d 791, 799 (D.C. Cir. 1969).
Nor does any alleged violation of Alston's Fifth-Amendment
rights fit the exception for cases in which a constitutional
violation would otherwise evade review. See id. at 799–800;
accord Barrows v. Jackson, 346 U.S. 249, 257, 73 S.Ct. 1031,
97 L.Ed. 1586 (1953).

© 2020 Thomson Reuters. No claim to original
011 U.S. Government Works.

11

United States v. Wilkerson, 966 F.3d 828 (2020)

*****

So ordered.

For the foregoing reasons, we affirm the judgment of the
district court.

All Citations
966 F.3d 828

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original
012 U.S. Government Works.

12

USCA Case #10-3037

Document #1853336

Filed: 07/24/2020

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 10-3037

September Term, 2019
FILED ON: JULY 24, 2020

UNITED STATES OF AMERICA,
APPELLEE
v.
LARRY WILKERSON,
APPELLANT
Appeal from the United States District Court
for the District of Columbia
(No. 1:00-cr-00157-15)
Before: SRINIVASAN, Chief Judge, HENDERSON, Circuit Judge, and RANDOLPH, Senior
Circuit Judge
JUDGMENT
This cause came on to be heard on the record on appeal from the United States District
Court for the District of Columbia and was argued by counsel. On consideration thereof, it is
ORDERED and ADJUDGED that the District Court’s judgment of convictions and
sentence appealed from in this cause be affirmed, in accordance with the opinion of the court filed
herein this date.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: July 24, 2020
Opinion for the court filed by Chief Judge Srinivasan.

013

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

656 F.Supp.2d 1
United States District Court,
District of Columbia.

1 Cases that cite this headnote
[2]

Discharge of juror or jury pending trial

UNITED STATES of America
v.
Larry WILKERSON, Defendant.

Courts generally enjoy wide latitude in
determining the type of investigation to
conduct when request is made to dismiss juror
based on allegations of juror misconduct arise.

Cr. No. 00–0157–15 (TFH).
|
July 10, 2009.
Synopsis
Background: Defendant who was convicted of nine counts
related to narcotics conspiracy and three murders moved
for a new trial.

Cases that cite this headnote
[3]

Jury
Discharge of juror or jury pending trial
At defendant's trial on charges related to
narcotics conspiracy and murder, after a
juror sent a note to the trial court during
deliberations asking to be replaced with an
alternate juror, the trial court, in order to
protect the defendant's right to a unanimous
jury verdict, was not required to deny the
juror's request for dismissal, since the court
found that there was no substantial possibility
that the juror's request to be discharged
stemmed from doubts the juror had about
the sufficiency of the government's evidence.
U.S.C.A. Const.Amend. 6.

Holdings: The District Court, Thomas F. Hogan, J., held
that:
[1] trial court was not required to ask juror if she harbored
concerns about the sufficiency of the evidence before
dismissing juror;
[2] court was not required to deny juror's request for
dismissal; and
[3] rule of criminal procedure authorized the trial court to
discharge juror.

Jury

1 Cases that cite this headnote
[4]

Jury
Discharge of juror or jury pending trial

Motion denied.

In prosecution for charges related to
narcotics conspiracy and murder, the rule
of criminal procedure authorizing the trial
court to discharge a juror during deliberations
authorized the trial court to discharge a juror
during deliberations on the ground that the
juror intended to disregard the governing law.
Fed.Rules Cr.Proc.Rule 23(b), 18 U.S.C.A.

West Headnotes (5)
[1]

Jury
Discharge of juror or jury pending trial
At defendant's trial on charges related to
narcotics conspiracy and murder, before
dismissing a juror who sent a note to the
trial court during deliberations asking to be
replaced with an alternate juror, the trial
court was not required to ask the juror if she
harbored concerns about the sufficiency of the
evidence.

Cases that cite this headnote
[5]

Jury
Discharge of juror or jury pending trial
The rule of criminal procedure authorizing
the trial court to discharge a juror during
deliberations permits discharge of a juror

© 2019 Thomson Reuters. No claim to original
014 U.S. Government Works.

1

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

who refuses to apply the governing the law.
Fed.Rules Cr.Proc.Rule 23(b), 18 U.S.C.A.
Cases that cite this headnote

*1 MEMORANDUM OPINION
THOMAS F. HOGAN, District Judge.
Pending before the Court is defendant Larry Wilkerson's
Motion for a New Trial Based on Violation of Defendant's
Sixth Amendment Right to a Unanimous Jury Based on
the Court's Improper Removal of Juror Number 0552
During Deliberations (“Improper Removal Motion”)
(Docket No. 2195). Finding that the removal of Juror
Number 0552 from the deliberating jury *2 was not
improper, the Court will deny the motion.

BACKGROUND
After a two-month long trial, on September 22, 2004, a
jury found Wilkerson guilty on nine counts related to
narcotics conspiracy, RICO conspiracy, and the murders
of Marvin Goodman, Christopher Burton, and Scott
Downing. 1 Wilkerson filed numerous post-trial motions
attacking the validity of the proceeding, of which the
Improper Removal Motion is one. Because of these
pending post-trial motions, Wilkerson has yet to be
sentenced.
1

The jury found Wilkerson not guilty of two counts
related to the murder of a fourth person, Darrell
Henson.

The Improper Removal Motion concerns the Court's
dismissal of Juror 0552 2 from the jury in the midst
of deliberations. The jury commenced deliberations
on the afternoon of Wednesday, September 8, 2004,
and continued to deliberate on the ensuing Thursday,
Monday, and Tuesday. On the morning of Wednesday,
September 15, 2004, the Court received a handwritten note
from Juror 0552 bearing the time of 9:30 a.m., which read
as follows:

2

The 0552 designation represents the juror's number
from the venire. Within the empaneled jury, this
juror's number was 9.

I, juror number 0552, request that I be replaced with
an alternate in the deliberation of Larry Wilkerson. I
strongly disagree with the laws and instructions that
govern this deliberation, and I cannot follow them.
Because I feel so strongly about this, it may affect my
decisions in this matter. In other words a possible bias
decision [sic]. In addition, I am experiencing emotional
and mental distress. For this alone, I felt it was enough
for me to ask for a replacement. I would not be
asking for this request, if I didn't feel that this was
a serious issue. Please take this request under strong
consideration. I apologize, for the delay in this request,
but if it is at all possible please remove me from this
deliberation. Sincerely, Juror 0552
Improper Removal Motion, Attach. B (copy of the
note).
The Court consulted with counsel about how to proceed
and reviewed the leading case law, in particular United
States v. Brown, 823 F.2d 591 (D.C.Cir.1987) and United
States v. Thomas, 116 F.3d 606 (2d Cir.1997) (interpreting
and following Brown ). See Trial Tr. at 2–25, Sept. 15,
2004. Drawing on these precedents, the Court recognized
that this situation required it to strike a delicate balance
between two duties: (1) not to intrude upon the process
of jury deliberations, and (2) to discharge a juror who
engages in misconduct such as not following the law.
See Thomas, 116 F.3d at 618(“Once a jury retires to the
deliberation room, the presiding judge's duty to dismiss
jurors for misconduct comes into conflict with a duty
that is equally, if not more, important—safeguarding the
secrecy of jury deliberations.”) Over the government's
objection, the Court conducted a further voir dire of Juror
0552 to confirm her statements in the note. Over defense
counsel's opposition, the Court did not ask the juror
directly whether her discomfort reflected doubts about
the sufficiency of the government's evidence. The colloquy
between the Court and Juror 0552 is reproduced in full
below:
COURT: Good morning, ma'am. Thank you for
coming in. I appreciate it. For the record I need to
identify who you are. I need to ask a couple of questions
of your note. You're Juror 0552?
JUROR: Yes.

© 2019 Thomson Reuters. No claim to original
015 U.S. Government Works.

2

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

*3 COURT: Ma'am, you wrote me a note this
morning?

JUROR: I cannot follow it because I do not agree with
it.

JUROR: Yes.

COURT: You do not agree with the law?

COURT: All right. Thank you. In your note I just want
to review it with you and ask you a couple of questions
about it. And I cannot go into your deliberations or
what's going on in the jury room. You understand that?
I don't want to hear anything about the deliberations
or intrude in any way, but because of your note I
need to ask you a couple of questions. All right. Okay.
You said that you request to be replaced because you
strongly disagree with the laws and instructions that
govern this deliberation and you cannot follow them. In
other words, I just need to ask you when you make that
statement you mean the instructions and the law that
I've given to you in this case we're talking about?

JUROR: No.

JUROR: Yes.

JUROR: It is serious. We're dealing with somebody's
life.

COURT: And although you took an oath to follow the
instructions and the law you feel you cannot do so; is
that fair?

COURT: And under the law that I've given you you
disagree with that? Is that what you're saying?

JUROR: Yes.

JUROR: Yes.

COURT: And you were very fair about it. You wrote
I feel so strongly about this it may affect my decisions
in this matter. In other words, I may have possible bias
decision. And because you're disagreeing with the law,
is that what you're saying?

COURT: All right. Let me ask you to step back and not
talk to the other jurors about your situation and talk
with counsel for a minute. Can I do that for a minute,
please, ma'am. Thank you very much.

JUROR: Yes.
COURT: You also said you're feeling emotional and
mental distress. You felt that alone was enough to ask
for replacement. Is that just because of deliberations
you mean? I don't want to get—
JUROR: The whole thing.
COURT: The whole case?
JUROR: The whole case.
COURT: Let me ask you about the law. You've read the
instructions. You've heard my law we're talking about.
And it's your opinion you cannot follow the law and
apply it in this case? Is that what you're saying?

COURT: I don't want to get in your deliberations now.
JUROR: Okay.
COURT: You just don't agree with the law?
JUROR: Uh-uh.
COURT: And you came to this belief after seriously
considering you say here that you didn't, you know, you
wouldn't ask for this but you didn't feel you felt it was
such a serious issue?

Trial Tr. at 26–28. After further discussion with counsel,
id. at 28–33, the Court decided to dismiss Juror 0552
pursuant to FED.R.CRIM.P. 23(b)(3) based on her
representation, both in the note and during the voir dire,
that she strongly disagreed with the laws governing the
deliberation and could not follow them. Id. at 36–38.
Wilkerson claims that the Court erred in four ways.
Improper Removal Mot. at 2. First, he argues
procedurally that Brown *4 required the Court to ask
Juror 0552 if she harbored concerns about the evidence.
Second, Wilkerson asserts that the Court applied an
incorrect legal standard to dismiss Juror 0552, as it
found that there was no “substantial possibility” that
the juror harbored evidentiary concerns even though
Brown commands an “any possibility” standard. Third,
Wilkerson contends on the merits that the record was
ambiguous as to whether Juror 0552 had concerns about
the evidence, so the Court was wrong to remove her

© 2019 Thomson Reuters. No claim to original
016 U.S. Government Works.

3

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

regardless of her perceived intent to disregard the law.
Fourth, Wilkerson submits that, leaving aside concerns
about the evidence and assuming arguendo that Juror
0552 intended to disregard the law, the prospect of jury
nullification is not a proper basis to dismiss a juror under
Rule 23(b).
Based on these alleged errors, Wilkerson argues that the
Court wrongly dismissed Juror 0552 in violation of his
right to a unanimous verdict. See United States v. Essex,
734 F.2d 832, 840–41 (D.C.Cir.1984) (finding that right
to unanimous verdict derives from Sixth Amendment and
Federal Rules of Criminal Procedure). As his remedy,
Wilkerson seeks a new trial. In the alternative, he requests
that the Court summon Juror 0552 for another voir dire
to explore more conclusively whether evidentiary concerns
motivated her request to be discharged.

ANALYSIS
FED.R.CRIM.P. 23(b)(3) provides that “[a]fter the jury
has retired to deliberate, the court may permit a jury of
11 persons to return a verdict, even without a stipulation
by the parties, if the court finds good cause to excuse a

intended.” See FED.R.CRIM.P. 23 Advisory Comm.
notes to 2002 Amendments.

While this rule provides a bright line conceptually, its
application in practice is not always clear-cut:

[A court] must, however, confront
the problem that the reasons
underlying a request for a dismissal
will often be unclear [A] court
may not delve deeply into a juror's
motivations because it may not
intrude on the secrecy of the
jury's deliberations. Thus, unless
the initial request for dismissal
is transparent, the court will
likely prove unable to establish
conclusively the reasons underlying
it. Given these circumstances, ...
if the record evidence discloses
any possibility that the request to
discharge stems from the juror's
view of the sufficiency of the
government's evidence, the court
must deny the request.

juror.” 3 The D.C. Circuit, interpreting this Rule's “good
cause” requirement, 4 has held that “a court may not
dismiss a juror during deliberations if the request for
discharge stems from doubts the juror harbors about the
sufficiency of the government's evidence.” Brown, 823
F.2d at 596. “If a court could discharge a juror on the basis
of such a request, then the right to a unanimous verdict
would be illusory.” Id.; see also Thomas, 116 F.3d at 621
(“To remove a juror because he is unpersuaded by the
Government's case is to deny the defendant his right to a
unanimous verdict.”).
3

4

In this case, the Court granted Wilkerson's
unopposed request to maintain a twelve-member
deliberating jury by replacing Juror 0552 with an
alternate juror, pursuant to FED.R.CRIM.P. 24(c)
(3).
At the time Brown was decided, Rule 23(b) used
the term “just cause” rather than “good cause.”
The distinction is immaterial. The commentary to
the rule states that the wording was changed only
because “good cause” is a “more familiar term” than
“just cause,” and that “[n]o change in substance is

Brown, 823 F.2d at 596.
In Brown, the D.C. Circuit held that the district court erred
in dismissing a juror *5 because the record indicated a
“substantial possibility” that the juror's discharge request
stemmed from a belief that the evidence offered at trial
was inadequate to support a conviction. Id. at 596. The
juror in that case sent out a note saying that he was
“not able to discharge [his] duties as a member of this
jury.” Id. at 594. Upon questioning by the trial judge,
however, the juror stated that his difficulty was with “the
way [the act is] written and the way the evidence has
been presented.” Id. The juror noted further that “[i]f
the evidence was presented in a fashion in which the law
is written, then, maybe, I would be able to discharge
my duties.” Id. The Court of Appeals found that these
statements evinced a possibility that the juror wished to
quit deliberations because of evidentiary concerns, and
that this ambiguity should have blocked the district court
from excusing the juror. Id. at 597. Accordingly, the Court
of Appeals remanded for a new trial.

© 2019 Thomson Reuters. No claim to original
017 U.S. Government Works.

4

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

With this legal framework in mind, the Court below
addresses each of Wilkerson's four arguments for why the
dismissal of Juror 0552 was improper.

I. Whether the Court was required to ask Juror 0552
if she harbored concerns about the sufficiency of the
government's evidence
[1] After receiving Juror 0552's note, the Court consulted
with counsel before conducting the voir dire. During that
consultation, the following exchange took place between
defense counsel and the Court:
COUNSEL: In light of the Second Circuit's decision
that Your Honor was just reading [Thomas ] I think
there should be at least one question about whether
she has some difficulty with whether the evidence is
sufficient.
COURT: I don't think I can do that. If she wants to
volunteer that's one thing. The way it reads I can't do
that.
Trial Tr. at 25. In the subsequent colloquy with Juror
0552, the Court did not ask if she had any difficulty
with the sufficiency of the evidence. After the colloquy
and before the Court ruled, defense counsel again sought
unsuccessfully to have the Court ask Juror 0552 whether
she had evidentiary concerns. Id. at 29–33.
Revisiting this point, Wilkerson now argues that the Court
was required to ask Juror 0552 whether she harbored
concerns about the sufficiency of the government's
evidence. Wilkerson stresses that he did not and does not
contend that the Court should inquire into the substance
of the juror's views on the merits of the case; rather,
Wilkerson contends that a question could have been
propounded to elicit a simple “yes” or “no” answer as to
whether she had concerns about the evidence. Wilkerson
argues that such a question was required particularly in
light of Juror 0552's statement that she was experiencing
“emotional and mental distress” stemming from “the
whole case.” According to Wilkerson, this representation
possibly signaled that Juror 0552 was struggling with the
evidence, 5 triggering a duty for the Court to inquire
further to confirm whether she was troubled by the
evidence in the case.
5

The Court disagrees with this contention.
Notwithstanding
defense
counsel's
wishful

speculation, see, e.g., Def.'s Mem. of P. & A. at
7 & n. 7, the record before the Court indicated
no appreciable possibility that Juror 0552 harbored
concerns about the evidence. See infra Part III.

[2] The Court rejects the proposition that it was required
to ask Juror 0552 if she harbored concerns about the
sufficiency of the evidence. At most, Brown and *6
Thomas indicate that a court may ask such a question;
nowhere do those cases suggest that a court must. To
the contrary, courts generally enjoy wide latitude in
determining the type of investigation to conduct when
allegations of juror misconduct arise. See Essex, 734
F.2d at 845 (“The trial court has a great deal of
discretion in deciding to excuse a juror for cause. An
appellate court ordinarily will not second-guess such a
determination....”); United States v. Boone, 458 F.3d 321,
329 (3d Cir.2006) (“[W]e emphasize that a district court,
based on its unique perspective at the scene, is in a
far superior position than this Court to appropriately
consider allegations of juror misconduct, both during
trial and during deliberations.”); United States v. Baker,
262 F.3d 124, 129 (2d Cir.2001) (“[W]e have emphasized
that the questions whether and to what extent a juror
should be questioned regarding the circumstances of a
need to be excused are also within the trial judge's sound
discretion.” (internal quotation and citation omitted));
United States v. Register, 182 F.3d 820, 840 (11th
Cir.1999) (“[T]he court also enjoys substantial discretion
in choosing the investigative procedure to be used
in checking for juror misconduct.” (internal quotation
omitted)); United States v. Sears, 663 F.2d 896, 900 (9th
Cir.1981) (“The District Court has broad discretion to
decide whether to conduct an evidentiary hearing into
alleged juror misconduct, and to determine its extent and
nature.”). Nothing in Thomas or Brown indicates that this
widely accepted rule trusting in a court's sound discretion
has been supplanted by an opposite rule directing exactly
what questions a court must ask.
Wilkerson's argument demonstrates the folly of
attempting “to leap a chasm in two jumps,” to borrow a
phrase from British Prime Minister David Lloyd George
(1863–1945). Wilkerson makes much of the statement in
Brown that a court “may not delve deeply into a juror's
motivations.” 823 F.2d at 596. While it could follow
from that statement that a court may delve shallowly,
Wilkerson's reading further jumps to the conclusion that
a court must delve shallowly. Yet, it hardly follows from
the statement in Brown that a court must delve at all.

© 2019 Thomson Reuters. No claim to original
018 U.S. Government Works.

5

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

To the contrary, the dominant thrust of the reasoning of
Thomas, in which the Second Circuit elaborated on Brown,
is that inquiries into a juror's views on the merits of a case
are highly disfavored. As between competing values of
preserving the secrecy of jury deliberations and preventing
jurors from subverting the law, the secrecy of deliberations
is paramount:

Where the duty and authority to
prevent defiant disregard of the
law or evidence comes into conflict
with the principle of secret jury
deliberations, we are compelled to
err in favor of the lesser of two
evils—protecting the secrecy of jury
deliberations.... To open the door
to the deliberation room any more
widely and provide opportunities for
broad-ranging judicial inquisitions
into the thought processes of jurors
would, in our view, destroy the jury
system itself.

Thomas, 116 F.3d at 623; see also id. at 620 (“The
mental processes of a deliberating juror with respect to
the merits of the case at hand must remain largely beyond
examination and second-guessing, shielded from scrutiny
by the court as much as from the eyes and ears of the
parties and the public”). Following this precept, the Court
in its discretion endeavored to preserve the sanctity of
Juror 0552's thought process in this case. Accordingly, it
was not error to decline any inquiry into the juror's views
of the evidence.

II. Whether the Court applied an incorrect legal standard
to dismiss Juror 0552
[3] Wilkerson argues that, in deciding to dismiss Juror
0552, the Court did not *7 apply the controlling legal
standard prescribed in Brown: “[I]f the record evidence
discloses any possibility that the request to discharge stems
from the juror's view of the sufficiency of the government's
evidence, the court must deny the request.” 823 F.2d at 596
(emphasis added). According to Wilkerson, rather than
this “any possibility” standard, the Court erroneously
applied a standard requiring a “substantial possibility.”

Wilkerson bases his conclusion on part of the oral opinion
the Court delivered in dismissing Juror 0552:

[H]er only expression is she cannot
follow the law and she disagrees with
it and she reaffirmed that orally. She
was concerned about the case and
concerned there was a lot at stake
and she said a life at stake. That does
not indicate to me any substantial
possibility [of concern about the
sufficiency of the evidence] using the
language of the Brown decision or in
the Thomas case.

Trial Tr. at 38 (emphasis added). That language did
appear in Brown, where the D.C. Circuit found a
“substantial possibility” that the juror “requested to be
discharged because he believed that the evidence offered
at trial was inadequate to support a conviction.” 823 F.2d
at 596. The Thomas opinion, however, nowhere uses the
phrase “substantial possibility.”
As it stated in open court while reviewing the case law,
see Trial Tr. at 22, the Court rejects a legal distinction
between the “any possibility” and “substantial possibility”
formulations. As the Eleventh Circuit has explained,
these nominally different formulations must be treated
as expressions of the same standard: “In United States
v. Brown, the D.C. Circuit used both the term ‘any
possibility’ and the term ‘substantial possibility.’ We
believe the terms are interchangeable, both meaning a
tangible possibility, not just a speculative hope.” United
States v. Abbell, 271 F.3d 1286, 1302 n. 14 (11th Cir.2001)
(per curiam).
This reading is necessary because, if taken literally,
the “any possibility” standard announced in Brown
would impose the unworkable requirement of proving a
negative beyond the slightest scintilla of wildly speculative
possibility. The Ninth Circuit, in adopting a “reasonable
possibility” standard, recognized the impracticality of a
true “any possibility” approach:

We emphasize that the standard is
any reasonable possibility, not any

© 2019 Thomson Reuters. No claim to original
019 U.S. Government Works.

6

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

possibility whatever [T]o prohibit
juror dismissal unless there is no
possibility at all that the juror was
dismissed because of her position
on the merits may be to prohibit
dismissal in all cases. We believe
that the standard of “reasonable
possibility” in this context, like the
standard of “reasonable doubt” in
the criminal law generally, is a
threshold at once appropriately high
and conceivably attained.

United States v. Symington, 195 F.3d 1080, 1087 n. 5 (9th
Cir.1999) (internal quotation omitted).
As invoked in Brown, “any possibility” must be read
to refer to some kind of qualified possibility. The
Third Circuit, also adopting a “reasonable possibility”
standard, reached the same conclusion in its review of the
approaches that various Circuits have taken:

While there is a slight difference
in the standards as expressed by
the D.C. and Second Circuits
[“any possibility”] as compared
to the Ninth and Eleventh
Circuits [“reasonable possibility”
and “substantial possibility”], we
believe that the difference is one of
clarification and not disagreement.
To the extent that there is a
difference, we believe that the
articulation of the Ninth and
Eleventh Circuits is superior. That
standard will allow us to avoid
abstract “anything is *8 possible”
arguments, provide district courts
with some leeway in handling
difficult juror issues, and protect
each party's right to receive a verdict
rendered by a jury that follows the
law. At the same time, the standard
is by no means lax: it corresponds
with the burden for establishing
guilt in a criminal trial, so we are
confident that it will adequately

ensure that jurors are not discharged
simply because they are unimpressed
by the evidence presented.

United States v. Kemp, 500 F.3d 257, 304 (3d Cir.2007).
It would be helpful for the Court of Appeals to clarify
the applicable standard in this Circuit. The Court used
“substantial possibility” in its oral opinion because that
language appeared in Brown. 6 Several other qualifiers
—reasonable, appreciable, realistic, genuine, credible,
tangible—could be employed. Whatever the magic word,
the Court is confident that it correctly applied a standard
of qualified possibility and that Wilkerson's argument for
a literal “any possibility” standard must fail.
6

The Court also stated that it was “satisfied beyond a
reasonable doubt” of its conclusion. Trial Tr. at 38.

III. Whether the record was ambiguous as to Juror 0552's
concerns about the evidence and therefore the Court was
wrong to discharge her
Challenging the Court's ruling on the merits, Wilkerson
asserts that the record was ambiguous as to whether
Juror 0552 harbored concerns about the sufficiency of the
government's evidence. In light of this alleged ambiguity,
Wilkerson argues that, notwithstanding what the Court
perceived as Juror 0552's intent to disregard the law,
Brown prohibited her dismissal from the jury.
The Court rejects Wilkerson's premise that the record
exhibits ambiguity. As the Court found when ruling from
the bench, the evidence is clear that Juror 0552's request
to be dismissed stemmed from her inability to follow
the governing law, not from any evidentiary concerns:
“I'm satisfied beyond a reasonable doubt as a judge of
her credibility from her statements in the letter and her
statements on the record that she will not follow the
law, that she strongly disagrees with them and she'll not
follow them contrary to her oath of office....” Trial Tr.
at 38. Indeed, the Court had asked Juror 0552 seven
times, in multiple ways, whether she was unable to follow
the law as instructed, and each time she confirmed that
she could not. Id. at 26–28. The Court found that, in
her communications, Juror 0552 made no “reference
whatsoever to any evidentiary concerns or the strength
of the government's evidence or the dissatisfaction with
the government's presentation of the case making her

© 2019 Thomson Reuters. No claim to original
020 U.S. Government Works.

7

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

concern[ed] about proof beyond a reasonable doubt....”
Id. at 38. To the contrary, the Court found that both
her written and oral statements confirmed repeatedly that
her discharge request was motivated by disagreement with
the law: “[H]er only expression is that she cannot follow
the law and she disagrees with it and she reaffirmed that
orally.” Id.

for replacement. Is that just because of deliberations
you mean? I don't want to get—

The Court's factual findings are entitled to substantial
deference. See United States v. Taylor, 487 U.S. 326, 337,
108 S.Ct. 2413, 101 L.Ed.2d 297 (1988) (“Factual findings
of a district court are, of course, entitled to substantial
deference and will be reversed only for clear error.”).
Moreover, Juror 0552's clear-cut statements contrast
starkly with the record in Brown, where the juror traced his
difficulty *9 to “the way [the act is] written and the way
the evidence has been presented,” and then suggested that
“[i]f the evidence was presented in a fashion in which the
law is written, then, maybe, I would be able to discharge
my duties.” Brown, 823 F.2d at 594.

Id. at 27. What Juror 0552 was trying to communicate was
that her distress was not a product of the deliberations
specifically, but of the entire, exhausting proceeding.

Despite such a straightforward record, Wilkerson
attempts to divine ambiguity from Juror 0552's statement
that she was experiencing “emotional and mental distress”
stemming from “the whole case.” In Wilkerson's view,
this representation possibly signaled that Juror 0552 was
concerned about the sufficiency of the evidence, as “the
whole case” would include the evidence in the case.
Wilkerson's reading is simply not credible in light of all
the circumstances. Two other considerations explain what
Juror 0552 meant about “the whole case” causing her
distress. First, her statement later in the colloquy—“It
is serious. We're dealing with somebody's life.” Trial Tr.
at 28—indicates that what distressed her was the stakes
involved in the whole case, not the sufficiency of the
evidence. Second, the grueling length and complexity of
Wilkerson's trial, as described by the Court in its oral
opinion, see Trial Tr. at 36, further explains how “the
whole case” caused the juror distress. On that second
point, it is instructive to note that Juror 0552's reference
to “the whole case” was prompted only in response to
the Court's inquiry into the health concerns mentioned in
her note, not during any discussion of the merits of the
case. Specifically, the Court asked whether her distress was
related to the jury's deliberations:
COURT: You also said you're feeling emotional and
mental distress. You felt that alone was enough to ask

JUROR: The whole thing.
COURT: The whole case?
JUROR: The whole case.

Indeed, Juror 0552's clarification that her distress was
not triggered in particular by the deliberations rebuts an
inference that she was struggling with the sufficiency of the
evidence. Deliberations—the stage when the jury finally
evaluates the evidence in light of the controlling law—are
precisely when a juror's dissatisfaction with the sufficiency
of the evidence would manifest itself most clearly, yet that
phase of the case was not especially distressing to Juror
0552.
Finally, Juror 0552's implication that the deliberations
were not a particular cause of distress undercuts
Wilkerson's conjecturing, see Def.'s Mem. of P. & A.
at 7 & n. 7, 17, that she was a holdout juror of the
sort that Brown and Thomas seek to protect from being
bullied into seeking a discharge. See Thomas, 116 F.3d at
622 (explaining that Brown rule guards against wrongful
removal in scenario where group of jurors favoring
conviction unfairly characterizes a lone holdout juror as
unwilling to follow the law). Wilkerson's supposition of a
bullied juror is also belied by the absence, in over three
days of deliberation, of any note or other indication from
the jury demonstrating that tension existed among the
jurors. See Trial Tr. at 36. Juror 0552 never hinted in any
way of such pressure.
In sum, Juror 0552's statements very clearly identify her
motivation for seeking to be discharged from the jury: she
disagreed with the governing law and felt herself unable
to follow it. Contrary to Wilkerson's suggestions about
why “the whole *10 case” would have caused Juror
0552 “emotional and mental distress,” the record viewed
in light of all the circumstances exhibits no substantial
(or reasonable, appreciable, realistic, genuine, credible,
or tangible) possibility that Juror 0552's request for
discharge stemmed from doubts about the sufficiency of
the government's evidence.

© 2019 Thomson Reuters. No claim to original
021 U.S. Government Works.

8

U.S. v. Wilkerson, 656 F.Supp.2d 1 (2009)

IV. Whether a juror's intent to disregard the law is a
proper basis under Rule 23(b) to dismiss that juror
[4] In Brown, the D.C. Circuit “specifically [left] open
the question ... whether a court may constitutionally apply
Rule 23(b) to discharge a juror for refusing to apply
the relevant substantive law.” 823 F.2d at 597. Taking
up this question, Wilkerson contends that, even if Juror
0552 plainly intended to disregard the law, such jury
nullification is not a proper basis to dismiss a juror under
Rule 23(b). He offers minimal substantive discussion in
support of this proposition. See Def.'s Mem. of P. & A.
at 13 n. 9.
[5] This Court now answers that Rule 23(b) permits
discharge of a juror who refuses to apply the governing
the law. Facing the same issue in Thomas, the Second
Circuit, with Judge Cabranes writing, fulminated against
the theory that Wilkerson advances:

We categorically reject the idea that,
in a society committed to the rule of
law, jury nullification is desirable or
that courts may permit it to occur
when it is within their authority to
prevent. Accordingly, we conclude
that a juror who intends to nullify
the applicable law is no less subject
to dismissal than is a juror who
disregards the court's instructions
due to an event or relationship that
renders him biased or otherwise
unable to render a fair and impartial
verdict.

116 F.3d at 614. The Second Circuit continued that:

Inasmuch as no juror has a right to
engage in nullification—and, on the
contrary, is in violation of a juror's
sworn duty to follow the law as
instructed by the court—trial courts
have the duty to forestall or prevent
End of Document

such conduct, whether by firm
instruction or admonition or, where
it does not interfere with guaranteed
rights or the need to protect the
secrecy of jury deliberations, by
dismissal of an offending juror from
the venire or the jury.

Id. at 616 (internal reference omitted). Addressing
precisely the point that Wilkerson raises, the Second
Circuit held that “a juror who is determined to ignore
his duty, who refuses to follow the court's instructions
on the law and who thus threatens to undermine the
impartial determination of justice based on law, is subject
to dismissal during the course of deliberations under Rule
23(b).” Id. at 617 (internal quotation omitted); accord
Kemp, 500 F.3d at 303 (“[C]ourts agree that a district
court has the authority to dismiss a juror—even during
deliberations—if that juror refuses to apply the law or
to follow the court's instructions.” (internal quotation
omitted)); Abbell, 271 F.3d at 1302 (“ ‘Just cause’ exists
to dismiss a juror when that juror refuses to apply the law
or to follow the court's instructions.”). The Court agrees
with the Second, Third, and Eleventh Circuits, and rejects
Wilkerson's claim.

CONCLUSION
The Court finds no merit in Wilkerson's arguments that
the dismissal of Juror 0552 was improper. It was not
necessary to ask the juror whether she harbored concerns
about the sufficiency of the evidence, nor did the record
contain ambiguity on that point. The Court applied the
correct legal standard in reaching its decision to *11
discharge the juror, and Rule 23(b) permitted it because
she had expressed her intent to disregard the law. Because
all of Wilkerson's arguments fail, the Court will deny his
motion.
An order accompanies this Memorandum Opinion.

All Citations
656 F.Supp.2d 1

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original
022 U.S. Government Works.

9

USCA Case #10-3037

Document #1865162

Filed: 10/06/2020

Page 1 of 1

United States Court of Appeals
FOR T HE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 10-3037

September Term, 2020
1:00-cr-00157-TFH-15
Filed On: October 6, 2020

United States of America,
Appellee
v.
Larry Wilkerson,
Appellant
BEFORE:

Srinivasan, Chief Judge, Henderson, Circuit Judge, and Randolph,
Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for panel rehearing filed on September 8,
2020, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

023

/s/
Michael C. McGrail
Deputy Clerk

USCA Case #10-3037

Document #1865161

Filed: 10/06/2020

Page 1 of 1

United States Court of Appeals
FOR T HE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 10-3037

September Term, 2020
1:00-cr-00157-TFH-15
Filed On: October 6, 2020

United States of America,
Appellee
v.
Larry Wilkerson,
Appellant

BEFORE:

Srinivasan, Chief Judge; Henderson, Rogers, Tatel, Garland, Millett,
Pillard, Wilkins, Katsas, Rao, and Walker, Circuit Judges; and
Randolph, Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for rehearing en banc, and the absence of
a request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

BY:

024

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

025

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Page 2
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

UNITED STATES OF AMERICA .
Plaintiff, .
. Docket No. CR-00-157-15
.
LARRY WILKERSON,
. Washington, D.C.
. September 15, 2004
.
Defendant. .
. . . . . . . . . . . . . . ..
Day 33 - AM SESSION
TRANSCRIPT OF TRIAL
BEFORE THE HONORABLE CHIEF JUDGE THOMAS HOGAN
UNITED STATES DISTRICT JUDGE
APPEARANCES:
For the Government: United States Attorney's Office
Glenn L. Kirschner, Esquire
Rachel Carlson-Lieber, Esquire
555 4th Street, Northwest
Washington, D.C. 20001
202.928.2029
For the Defendants: Sebastian K.D. Graber, Esquire
Post Office Drawer 189
Wolftown, Virginia 22748
540.948.5503
Leibig, Moseley & Bannett
Christopher Leibig, Esquire
Andrea Moseley, Esquire
108 North Alfred Street, #101
Alexandria, Virginia 22314
703.683.4310
Court Reporter: Cathryn J. Jones, RPR
Official Court Reporter
Room 4808A, US District Court
333 Constitution Ave., NW
Washington, D.C. 20001
Proceedings recorded by machine shorthand, transcript
produced by computer-aided transcription.

PROCEEDINGS
THE DEPUTY CLERK: This is criminal record
00-157, United States versus Larry Wilkerson. Glenn
Kirschner present for the government. Sebastian
Graber and Christopher Leibig for the defendant.
Mr. Wilkerson is now present, Your Honor.
THE COURT: We received a notice. Counsel
have been made apprised of the note. I will read it
for the record so it's in the record. From Juror
number 0552 -- do we know which position that is?
THE DEPUTY CLERK: Seat number nine, Your
Honor.
MR. GRABER: It's in the back, Your Honor.
The second from the monitor.
THE COURT: As follows, and this is the note
9:30 a.m., so it was written first thing this morning.
Today is Wednesday, September 15th. They went out
last week, Tuesday afternoon. In the latter part of
the afternoon, deliberated Wednesday and Thursday and
deliberated Monday and Tuesday. So they've had four
full days of deliberation and a few hours Tuesday
afternoon.
"I Juror 0552, request that I be replaced
with an alternate in the deliberation of
Larry Wilkerson. I strongly disagree with

Page 3
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

the laws and instructions that govern this
deliberation and I cannot follow them.
Because I feel so strongly about this it may
affect my decisions in this matter. In
other words, a possible bias decision
period.
In addition, I am experiencing emotional and
mental distress. This alone I felt was
enough for me to ask for a replacement. I
would not be asking this for this request if
I didn't feel that this was a serious issue.
Please take this requesting under strong
consideration. I apologize for the delay in
this request, but if it is all possible
please remove me from this deliberation.
Sincerely, Juror 0552."
So I would like to speak with counsel as
they look at the possibilities of how we handle this.
Either under rule 23(b)(3) I believe it is. Or and
the guidance United States versus Brown in this
circuit. I remember that case very well, a Mikva
case. And I think recently a couple of judges
addressed something similar although the circumstances
were a little different in each one of them.
As to their input on this I assume we'll

Page 4
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

have to talk with Juror 0552 to understand the concern
as to whether it's an evidentiary based concern or not
or if it's a legal based certain or a health base
concern. So let me hear from the government and I'll
hear from Mr. Graber for the defendant.
MR. KIRSCHNER: Thank you. Good morning,
Your Honor.
THE COURT: Good morning.
MR. KIRSCHNER: Your Honor, we wrestled with
this same situation albeit a slightly different
factual setting as we have here. We wrestled with it
in trial two. I think the Court's first inclination
was the same as the government's first inclination,
which is we may have to individually voir dire this
juror. However, upon reflection and consultation with
the chief of our appellant section and review and
re-review of the note and the case law we actually
don't know that that's necessary and here's why.
The Brown case has perhaps the highest and
most rigorous standard when it comes to excusing a
juror for good cause. And that is the any possibility
test. A number of courts in the aftermath of Brown,
notably the 11th Circuit and the 2nd Circuit, in the
Abell case and the Thomas case respectfully. I
believe Thomas was the 2nd Circuit, have said well, we

1 (Pages 1 to 4)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

026

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 5
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

certainly don't interpret the any possibility test as,
as being the any possibility test because anything is
theoretically possible.
They basically interpret it as some
substantial possibility that the juror's decision or
the juror's request for an excusal as the case may be
is based on the evidence. If there is some
substantial possibility that the juror's decision or
the juror's problem is based on the evidence in the
case, you know, then the Court is not permitted to
remove that juror. What we have here factually Your
Honor as the record stands is we suggest a situation
where the note itself passes the any possibility test,
which is the highest most exacting test which is
presently the test in this jurisdiction.
I guess if you look at the note, Your Honor,
this juror has said clearly and unequivocally that
she, I believe it's a juror in the back row, she
strongly agrees with the law and the instructions.
And I believe it is the Abell case at 271 F.3rd 1286,
the 11th Circuit case decided in 2001, that says, "A
juror's stated refusal to follow either the law or the
instructions warrants removal." This juror has
unequivocally said she can follow neither the law nor
the instructions that govern this deliberation. And

Page 6
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

she says quote "I cannot follow them." Because she
feels so strongly about this in her note it may affect
her decision and could possibly lead to a bias
decision.
There is nothing in this note that suggests
that this is an evidentiary based issue. We believe
that based on this note alone this juror should be
removed and we will defer to the Court and to the
defense as to whether they want, the defense wants to
proceed with 11 or replace the removed juror with an
alternate. But we don't think individual voir dire is
necessary because the strength and the clarity and the
conviction stated in this note that disqualifies this
juror on it's four corners.
THE COURT: Thank you. She did say or he,
he or she did say that they cannot follow the law or
the instructions. I recognize that. But let me hear
from the Mr. Graber.
MR. KIRSCHNER: Your Honor, can I add one
point. Because even the Brown court cautions against
going into the reasons for her refusal to follow the
law and instructions. And it specifically the Brown
opinion, it says, "That the Court may not delve deeply
into a juror's motivations because it, the Court may
not intrude on the secrecy of the jury's

Page 7
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

deliberations." That's the Brown court militating
against to the extent possible delving into why this
juror has said I cannot and will not follow the law
and the instructions. So that again we think even the
Brown court's caution militates against individual
questioning.
THE COURT: All right. Thank you.
Mr. Graber.
MR. GRABER: Thank you, Your Honor. Your
Honor, the our view is at minimum the court should
voir dire the juror to find out whether or not this is
an evidentiary at all based concern. Because
Mr. Wilkerson we feel very strongly he's entitled to
this juror unless there's, it's clearly a matter of
simply juror nullification. And just because the
words used in this note which is a fairly brief note
in our view is not sufficient to deprive Mr. Wilkerson
of his right to have this jury decide this case.
The other point I have not unlike
Mr. Kirschner I have not read through the Brown
decision. I got just now a copy of it from
Mr. Kirschner. I haven't had an opportunity to read
through the whole thing. And so I feel somewhat at a
lost to argue from any kind of depth of knowledge what
the Brown case stands for. It appears to be concerned

Page 8
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

about dismissal of jurors if there's any possibility
that a juror is having difficulty based on how the law
applies to the facts of the case.
THE COURT: Okay. I had another Brown case
well in a sense it was tried when I was here for -actually the printout is wrong. It was tried by
Aubrey Robinson. It says Spottswood Robinson was the
trial judge. Aubrey Robinson tried it. It was a
multiple month to month long trial and had weeks and
weeks of deliberations and several notes saying it was
hung. And then this one note came out from this one
juror saying I can't follow the law. In questioning
that juror he said I can't follow the law, but I'm
concerned about the evidence. That's what really blew
it when he said that.
Judge Robinson had felt he already said he
couldn't follow the law, so it didn't make any
difference. Once he refused to follow the law so he
excused him and he got it back. And the Brown case I
think is far reaching as they go. I've looked at this
before in some other context about the Rule 23(b)(3)
and what happens and other circuits have not fallen
under circuit law.
MR. GRABER: Because of Brown there was an
inquiry if the court had stopped. I did get a chance

2 (Pages 5 to 8)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

027

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 9
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

to look at the colloquy that's in the Court of Appeals
decision. And clearly the jurors indicated at first
glance there was a problem with the law nullification
issue. And then as the Court was talking to the jury
it came out that there was an evidentiary basis for
it, which I think is why the court should inquire of
the juror. I did get the transcript of the voir dire
of this juror, which was July 16, 2004 the a.m.
session.
And this juror was under some questions
asked by Ms. Carlson-Lieber about whether she could be
fair to law enforcement. Because she had expressed a
view that some, in her view a lot of people are
unjustly convicted. She mentioned DNA evidence and
that sort of thing. And she indicated that she could
follow the evidence in the case notwithstanding that
view and that she could be fair to both sides. So she
has previously indicated a willingness to following
the law. And so I just wanted to point that out for
the record.
THE COURT: I appreciate your looking that
up.
MR. GRABER: What she said was
Ms. Carlson-Lieber after the juror mentioned that some
people she thought were unjustly convicted.

Page 10
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Ms. Carlson-Lieber said:
"That's fair. With sort of that view some
what can be characterized as unjustice
within the criminal justice system where
folks are doing time they should not be."
As a backdrop it says, "You know, a criminal
case involving allegations about drug
dealing and murders and all sorts of
criminal activity that the government
alleges Mr. Wilkerson was involved in. Do
you think that you'd feel comfortable
putting aside sort of your concerns about
that type of problem and face the evidence
in this case? I'm sorry view the evidence
in this case fairly based just on what you
hear and see in this courtroom and not bring
in with you your concerns about what's
happened to other folks in other places.
THE JUROR: Right. I could view this case
fairly based upon from what I've seen and
concerned about other people's injustice.
But it's about what's going to be proved
here."
And then Ms. Carlson-Lieber says okay, thank
you. Thank you very much.

Page 11
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

So I think in light of that we should at
least, the court should voir dire the juror and
determine if her problem is based on the facts as the
law applies to those facts. And if that's the case
then that's the situation where we definitely believe
the juror should continue to sit. Her other concerns
about being under mental distress and so forth,
experiencing emotional and mental distress. Being on
a jury is note an easy task. And I think she should
not be excused simply because of that.
THE COURT: She did say that that alone I
felt was enough for me to ask for a replacement. On
the Brown case correct, the note was one that said the
defendant was not guilty. And the court answered that
note. And the next day the juror came in with a note
saying I cannot discharge my duty as a member of the
Jury. And the court did a very brief voir dire about
the health problem.
And that, "It's not a personality problem."
And then he volunteered, "It's the way the RICO
conspiracy act reads." And the judge he asked, "Do
you understand it?" He said, "Yes. But at this point
I cannot go along with that act. If I had known at
the beginning of the trial what the act said I would
not have said I could be impartial."

Page 12
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

And then he goes onto say, "I disagree with
it." And Judge Robinson says, "You disagree with the
law?"
He said, "Yes.
And if you had known that you would have
indicated on the voir dire?
Yes sir."
The Court said, "When I asked you the
question, would you follow the court's instructions,
you would have said no, because I don't like the law?"
Then he says, "It's the way it's written and
the way the evidence has been presented."
And he says, "If the evidence was presented
in a fashion which the law is written, then, maybe, I
would be able to discharge my duties."
The court cut him off said, I don't want to
hear your individual verdict or expression. I just
want to know finally what the problem is since you've
been deliberating for five weeks and haven't missed a
beat until now.
When he talked about the evidence and how it
applies that's one that drove the court to write as
they did. Although I think when it talks about any
possibility I think also as Judge Mikva wrote that.
Judge Ginsburg is on it and Bork.

3 (Pages 9 to 12)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

028

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 13
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

MR. GRABER: I don't believe Judge Ginsburg
was sitting, Your Honor.
THE COURT: Mikva, Bork and Ginsburg.
MR. GRABER: I think the older -- not
Justice Ginsburg?
THE COURT: No. The present chief judge.
MR. GRABER: I think the holding is on page
-THE COURT: "A court may not delve deeply
into a juror's motivations because it may not intrude
on the secrecy of the jury's deliberations. We must
hold that if the record evidence discloses any
possibility that the request to discharge stems from
the juror's view of the sufficiency of the
government's evidence, the court must deny the
request."
And then, "The record evidence in this case
indicates a substantial possibility juror, Spriggs
requested to be discharged because he believed that
the evidence offered at trial was inadequate to
support a conviction."
MR. GRABER: I think what the court -THE COURT: They leave open whether the
constitutionally apply Rule 23(b) to discharge a juror
for refusing to apply the law. Although other court

Page 14
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

-- this was an '86 case involved. The Rule was
amended in '83 to add this striking a juror for good
cause. Which really came about for long trials where
a juror got sick, which is the original basis of that
Rule, the original juror began ill. All right.
MR. GRABER: So I think the court should
voir dire this juror in a careful way. And so we can
make a determination if there's any evidentiary basis
whatsoever and the juror should continue to sit is our
view.
THE COURT: Well it's a very difficult and
delicate matter. You do not want to intrude upon the
jury process whatsoever in their deliberations and the
deliberations of the other jurors. They've been
deliberating four days approximately full-time and a
little bit of an earlier -MR. GRABER: It's been three full days, I
believe.
THE COURT: Is it three full days and a
couple of hours.
MR. GRABER: They went out on Wednesday
afternoon -THE COURT: I thought it was Tuesday.
MR. KIRSCHNER: Late Wednesday afternoon.
THE COURT: Three full days plus a couple of

Page 15
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

hours.
MR. KIRSCHNER: If the Court will permit me,
I want to comment on one or two things Mr. Graber
said. And I think most importantly Mr. Graber said
well, they individually voir dired Mr. Spriggs. They
print his name in the Brown opinion. But I think what
we have to look at is the question that Mr. Spriggs or
the note Mr. Spriggs sent to court that that sort of
militated in favor of individual voir dire. He said I
Bernard Spriggs am not able to discharge my duties as
a member of this jury period. I think that leaves no
legal room.
THE COURT: That's after a note when he
said, someone sent a note out asking when do you find
a defendant not guilty?
MR. KIRSCHNER: Correct. Suggesting -THE COURT: One vote of not guilty is that
sufficient.
MR. KIRSCHNER: -- suggesting maybe they had
reached some verdicts. But I think then when the
juror sends out a note saying I can't discharge my
duties the court has no option but to individually
voir dire even given Brown's caution against delving
into such matters. We think that really the primary
question or answer for Mr. Spriggs was the one that

Page 16
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

the court quoted last which is that when Mr. Spriggs,
the juror said, if the evidence was presented in a
fashion in which the law is written then maybe I would
be able to discharge my duties. That is clearly an
announcement or arguably an announcement of an
evidentiary based problem even though he had made
conflicting replies earlier that he could not follow
the law at all as written.
Here again because we don't have a situation
we think lends itself to delving into this juror's
concerns when the juror announces I can't follow the
law and I can't follow the instructions, you know, the
inclination is perhaps natural for a juror if you
begin quizzing him or her to either be led into saying
well maybe it's the evidence too or maybe it's this or
that and we'll delving into things that we don't think
we need to delve into given the clear and
unequivocally announcement from this juror that she
can't follow the law and or the instructions.
And the final point was that the juror may
have said before during voir dire at the beginning of
the case, she may have very well said and she may have
believed I can follow the law and instructions. Of
course, that was at a time when she hadn't been
instructed. We do our best to apprise them during

4 (Pages 13 to 16)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

029

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 17
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

individual voir dire through the questionnaire and
through direct questions of how we think the case may
play out. But it's not until she receives the final
instructions and the law and then comes back with
after three days, look, I can't follow the law and the
instructions that the government suggests that that
note really ought to be the beginning and the ending
of the inquiry.
THE COURT: All right. What I'd like to do
is have the Brown case here. I don't have a couple of
the cases. I have the circuits in front of me. I do
have the synopsis, but I want to look at a couple of
those that may have looked at this exact issue since
our court is not Brown case specifically reserved on
this issue; although, I think it's up there now
perhaps. It may be up there now on the case stream
crew and being argued.
MR. KIRSCHNER: If it would exists I have
that section of the government's brief which has been
filed in the case that addresses the removal of the
juror for slightly different reasons in that case, but
if the court wants I'll provide it.
THE COURT: I want to get the Abell case and
the other case from the 11th Circuit it was you
mentioned that did not follow the law or the

Page 18
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

instructions and look at those for a few minutes and
come back out. When will they go to lunch?
THE MARSHAL: 12:30.
THE COURT: I want to resolve this before
they go out for lunch. Let me go look at these cases
and come right back. We'll take a short break and be
back and see where we're going to go on this.
[Thereupon, recess taken at 11:57 a.m.,
resuming at 12:25 p.m.]
THE COURT: All right. I've gone through
the case law cited, looked at some other case law as
well of the circuits that have had to consider this
problem since the 1983 amendment to the Rule 23(b)
allowing the court to remove a juror for incapacitated
unable to serve for a particular reason. And the
discussion in the 2nd Circuit case by Judge Cabranes
in the Thomas case is instructive of that is 116 F.3rd
606 along with the 11th Circuit cases that have had
opportunity to develop the law on this beyond the
Brown case which also referred to the Brown case and
discussed it as well.
The U.S. versus Ge -- Geffrard, 87 F3rd 448,
11th Circuit, with regard to a juror during
deliberations submitting a letter saying religiously
she could not follow the law in the case. And that

Page 19
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

the victim's are entrapped, although there was no
instruction about entrapment. And it was not an issue
in the case. And she was prepared to nullify the law
set forth in the court's instructions. And the letter
alone they held that was enough to dismiss the juror.
And then in the subsequent Abell case as mentioned by
the government in the same circuit, somewhat similar
to concerns we have; although, I think our Brown case
is most closely on point along with this Thomas of the
2nd Circuit.
Judge Cabranes goes in great detail
discussing three things. One he concludes is the
obvious relation to the juror's oath and duty he
refused to apply the law set forth by the court
constitutes grounds for dismissal under 23(b). They
conclude also the importance of safeguarding the
secrecy of the jury deliberation room coupled with the
need to protect against dismissal of a juror based
upon the doubts about the guilt of a criminal
defendant require that a juror be dismissed for
refusal to apply the law instructed only where the
record is clear beyond doubt. And they define that
later as beyond a reasonable doubt that the juror is
not in fact simply unpersuaded by the prosecution's
case. And there they felt the court erred in

Page 20
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

dismissing the juror after giving the juror and other
jurors about the problems where he indicated he had
evidentiary concerns as well as other concerns.
But he goes great detail in the secrecy of
the jury deliberations. And the court's fundamental
that is and that the trial court cannot in any way
intercede in their deliberations or learn of their
deliberations. Citing judge's duty to dismiss juror's
misconduct comes into complex with the duty that is
equally if not more important safeguarding the secrecy
of jury deliberations. Courts face a delicate and
complex task whenever they undertake to investigative
reports of juror misconduct or bias during the course
of a trial. This undertaking is a particularly
sensitive where, as here, the court endeavors to
investigate allegations of juror misconduct during
deliberations.
So the general rule, the judge presiding at
a trial has no right to know how a jury, or any
individual juror, has deliberated or how a decision
has been reached. How they reached a decision. It
goes into great length in many pages discussing that.
It says, "There are strict limitations on intrusion
from those who participate in the trial process
including counsel and the presiding judge. The court

5 (Pages 17 to 20)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

030

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 21
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

must limit its own inquiries of jurors once the
deliberations have begun." The underlying facts in
this case the judge had done extensive ex parte in
camera rulings of other jurors concerning the problem.
Very different than the normal process. He had done a
lot of talking with the jurors on the record but out
of the presence of counsel and then revealed to
counsel what some of the things the jurors were
saying. I think some of the discussions where Judge
Cabranes was advising his District judges about how
far they should go doing that.
"In many cases, the presiding judge is able
to determine whether there's just cause to dismiss a
deliberating juror without any inquiry into the
juror's thoughts on the merits of the case." And he
talks about incapacitation, et cetera. "The need to
protect the secrecy of jury deliberations begins to
limit the court's investigatory powers where the
asserted basis for a deliberating juror's possible
dismissal is the juror's alleged bias or partiality."
And then he says, "Where the presiding judge
receives reports that a deliberating juror intent on
defying the court's instructions on the law, the judge
may well have no means of investigating the allegation
without unduly breaching the secrecy of deliberations.

Page 22
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Rather, to determine whether a juror is bent on
defiant disregard of the applicable law, the court
would generally need to intrude into the juror's
thought processes. Such investigation must be subject
to strict limitations.
Without such an inquiry, however, the court
will have little evidence with which to make the often
difficult distinction between the juror who favors
acquittal because he purposefully disregarding the
court's instructions on the law, and the juror who is
simply unpersuaded by the Government's evidence. Yet
this distinction is a critical one." Then they cite
the Brown rule. The Brown rule is determined really
being not just any possibility, but a substantial
possibility. I believe the language in the Brown or
the Brown court was talking about despite the phrase
used on the record any possibility.
They say, "We adopt the Brown rule as an
appropriate limitation on a juror's dismissal in any
case where the juror allegedly refuses to allow the
law. Whether the juror himself requests to be
discharged from duty or as in the case under
advisement, fellow jurors raised allegations of this
form of misconduct." And they say it has to be a high
evidentiary standard before he would strike a juror.

Page 23
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Or another way of saying lowering evidentiary standard
could lead to the removal of jurors where they
shouldn't be removed.
They rule that a presiding judge faced with
anything but unambiguous evidence that a juror refused
to apply the law as instructed need go no further in
his investigation of the alleged nullification. So
they say there has to be standard -- buttress is the
course principle of the secrecy of jury deliberations,
leaves open the possibility that jurors will engage in
irresponsible activity that will remain outside the
court's powers to investigate or correct, but it's a
public policy decision.
The reason they gave in this one is that the
juror who was excused besides saying he didn't like
the law assured the court that his opinions was based
upon his view of the evidence. I want substantive
evidence against him. I want to know it's clear in my
mind guilt beyond a reasonable doubt. And that's what
the juror said when the court asked him about his
concerns. He said he didn't like the law as well
which really is similar to the Brown case.
Here I have a juror saying they will not
follow the law and instructions. Government says
that's sufficient without an inquiry because of the

Page 24
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

need to protect the secrecy of the jury deliberations.
Defense says we should do an voir dire. The court is
going to do a very brief voir dire of the juror. Very
limited voir dire to ask about this letter without
asking anything about and trying to advise the juror
not to go into anything about their deliberation or
personal deliberations or the feelings about the case
beyond what she says in her letter to ask her about
whether or not she feels she can follow the law and
the instructions. Or in good conscience or cannot
follow the instructions despite the oath she's taken
to follow that. And that as she said means that she
cannot deliberate in this matter.
In the Brown case Judge Robinson had asked
-- she also raised a health issue, but I'm not sure if
that's necessary at this point to go into that with
her. Judge Robinson had the note that had the one
simple statement. He confirmed he had written that
note. The note obviously was not clear. Had simply
asked he had volunteered he could not follow the
conspiracy laws as it reads. And next discussion he
had with him, he said, obviously Robinson asked him
you agree with the law? He said, he would have
indicated that in voir dire when he said he couldn't
be fair. Then he answered about the evidence

6 (Pages 21 to 24)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

031

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 25
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

presented in the fashion written. That was in
conjunction with the note that had been sent out about
the one juror vote not guilty.
Here we've had not notes although they've
had three days and a couple of hours deliberations
with the jury apparently working when we get this one
note. Over objection of the Government I'm going to
have the Juror 0552 come in and briefly ask her a few
questions about this note and whether she can follow
the law on her oath to do so or not, and be guided by
her answers. All right.
MR. GRABER: In light of the Second
Circuit's decision that Your Honor was just reading I
think there should be at least one question about
whether she has some difficulty with whether the
evidence is sufficient.
THE COURT: I don't think I can do that. If
she wants to volunteer that's one thing. The way it
reads I can't do that.
THE MARSHAL: Your Honor, Juror 0552.
THE COURT: Good morning, ma'am. Thank you
for coming in. I appreciate it. For the record I
need to identify who you are. I need to ask a couple
of questions of your note. You're Juror 0552?
THE JUROR: Yes.

Page 26
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE COURT: Ma'am, you wrote me a note this
morning?
THE JUROR: Yes.
THE COURT: All right. Thank you. In your
note I just want to review it with you and ask you a
couple of questions about it. And I cannot go into
your deliberations or what's going on in the jury
room. You understand that? I don't want to hear
anything about the deliberations or intrude in any
way, but because of your note I need to ask you a
couple of questions. All right. Okay. You said that
you request to be replaced because you strongly
disagree with the laws and instructions that govern
this deliberation and you cannot follow them. In
other words, I just need to ask you when you make that
statement you mean the instructions and the law that
I've given to you in this case we're talking about?
THE JUROR: Yes.
THE COURT: And although you took an oath to
follow the instructions and the law you feel you
cannot do so; is that fair?
THE JUROR: Yes.
THE COURT: And you were very fair about it.
You wrote I feel so strongly about this it may affect
my decisions in this matter. In other words, I may

Page 27
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

have possible bias decision. And because you're
disagreeing with the law, is that what you're saying?
THE JUROR: Yes.
THE COURT: You also said you're feeling
emotional and mental distress. You felt that alone
was enough to ask for replacement. Is that just
because of deliberations you mean? I don't want to
get -THE JUROR: The whole thing.
THE COURT: The whole case?
THE JUROR: The whole case.
THE COURT: Let me ask you about the law.
You've read the instructions. You've heard my law
we're talking about. And it's your opinion you cannot
follow the law and apply it in this case? Is that
what you're saying?
THE JUROR: I cannot follow it because I do
not agree with it.
THE COURT: You do not agree with the law?
THE JUROR: No.
THE COURT: I don't want to get in your
deliberations now.
THE JUROR: Okay.
THE COURT: You just don't agree with the
law?

Page 28
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE JUROR: Uh-uh.
THE COURT: And you came to this belief
after seriously considering you say here that you
didn't, you know, you wouldn't ask for this but you
didn't feel you felt it was such a serious issue?
THE JUROR: It is serious. We're dealing
with somebody's life.
THE COURT: And under the law that I've
given you you disagree with that? Is that what you're
saying?
THE JUROR: Yes.
THE COURT: All right. Let me ask you to
step back and not talk to the other jurors about your
situation and talk with counsel for a minute. Can I
do that for a minute, please, ma'am. Thank you very
much.
[Thereupon, juror exits courtroom.]
THE COURT: All right. Any comment? Start
with the government.
MR. KIRSCHNER: This reinforces that she
cannot, will not follow the law. She was clear and
unequivocal and forceful about that. And it
reinforces what she already informed us through her
note. I think as the opinion say we really have a
duty under these circumstances to dismiss this juror.

7 (Pages 25 to 28)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

032

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 29
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE COURT: Well it's certainly discerning
of a juror to come in like this after being on trial
several weeks and listening to the instructions and
voir dire where she indicates she'd follow the law.
Let me hear from Mr. Graber on behalf of
Mr. Wilkerson.
MR. GRABER: Your Honor, the juror indicated
that her problem is she did say she had a problem with
the law. She also said she had the problem with the
whole case. And our view is that that's indicating
that she's got a problem with some of the facts and
certainly the law applies to the facts. Our view is
that there has to be some question framed in some way
to find out if part of the problem is having to do
with whether the evidence in the case -- she's having
a problem with applying the law to that evidence or
because this in the Thomas case the part, the court
read this part which is at 621. The whole difficulty,
the whole point the law is making is if it's at all a
fact based sort of concern then Mr. Wilkerson has a
right to that juror.
And our view is even if it's total law based
he still under the Sixth Amendment has a right to that
juror. I understand that our circuit has left that
issue open so-called nullification. I don't know if

Page 30
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

that's the proper term for it. But unless there's
actual evidence of juror misconduct I don't think she
can be excused without compromising Mr. Wilkerson's
right to a unanimous jury under the Sixth Amendment.
But in addition to that, what the Thomas
case is saying that there must be at least enough of a
questioning to determine whether it is at all an
evidence based certain. And simply asking if she has
problems with the law I think is not sufficient to get
that out from the juror. She did say she had a
problem with the whole case.
THE COURT: She said it's the whole case.
It's the whole case. I'll look at that language in a
second on the transcript.
MR. KIRSCHNER: Said it's the whole thing
when the court was asking about the law and the
instructions. She said it's the whole thing.
THE COURT: That was as to her health
concern. Let me look at the transcript for a second.
[Thereupon, the question was read back by
the Reporter.]
THE COURT: She did say in response to the
evidence the question was of the law it's a, it's her
concerns, but I don't think she's got an evidentiary
issue. Under the case law it's very difficult for the

Page 31
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

court to that I've given you you disagree with that is
that what you're saying? You think it's a murder
issue here and there's not enough evidence. Then I'm
getting into deliberations and I cannot do that.
Judge Cabranes wrote a very interesting opinion on
that. He understand the -- let me go look at his
language again because I'm guided by that and our
circuit's statement. And he cited our circuit twice,
three times in the Brown rule in proving it.
MR. GRABER: I understand the sensitivity to
that, but it seems there needs to be some question
that can be phrased the way it doesn't ask her to
reveal the deliberative process that asked whether any
part of her problem has to do with the sufficient -the evidence -THE COURT: The problem with that is I'll
get into -- they haven't finished their deliberations.
It's a long trial. They've have three days worth.
They haven't reviewed it all yet, so I'm sort of
breaking into the beginning or middle deliberations
trying to get her to, inquiring about various
concerns. I'm very leery. I recognize that's a
problem's attention but it's very hard to come to grip
with. The law in that circuit and other circuit
concluded it.

Page 32
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

MR. GRABER: Because it could be the laws
applied to the facts.
THE COURT: She didn't say that in her note
to me. Her note was very clear. She wants to be
relieved of the duty because she disagree with the
law. She didn't say everybody wanted to vote not
guilty. She didn't say everybody wants to vote
guilty. That's what happened in the Brown case.
Indication that he was a lone hold out. Obviously
Robinson excused him. I'm trying to see if I have in
the records they talk about here Thomas case and the
Brown case.
MR. GRABER: Your Honor read this was 116
F.3rd 621. "Rather, to determine whether a juror has
bent on defiant disregard of the applicable law, the
court would generally need to intrude into the juror's
thought process." That's what Your honor's concerned
about. "Such an investigation must be subject to
strict limitations. Without such an inquiry, however,
the court will have little evidence with which to make
the often difficult distinction between the juror who
favors acquittal because he's purposedly disregarding
the court's instructions on the law and the juror who
is simply unpersuaded by the Government's evidence."
And it seems like some sort of a question

8 (Pages 29 to 32)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

033

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 33
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

even if it's a yes or no question like is it the
instructions in general or the instructions as applied
to this situation or as applied to the evidence in
this case that's causing you difficulty?
THE COURT: All right. Thank you. What I'm
going to do is as follows in reading the Brown case
and the Thomas case together in that same paragraph
Judge Cabranes has just referred to defense counsel
Brown at 596, Brown, Judge Mikva said, "A court may
not delve deeply into a juror's motivations because it
may not intrude on the secrecy of the jury's
deliberations. Thus, unless the initial request for a
juror's dismissal is transparent, the court will
likely prove unable to establish conclusively for the
reasons underlying it. Given these circumstances, we
must hold that if the record evidence discloses any
possibility that the request to discharge stems from
the juror's view of the sufficient of the government's
evidence, the court must deny the request."
It goes onto to say, "We adopt the Brown
rule as an appropriate limitation on juror's
dismissal in any case where the juror allegedly
refuses to follow law. Given the necessary limitation
on a court's investigatory authorize in cases
involving a juror's alleged refusal to follow the law,

Page 34
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

it goes to evidentiary standard which I already
referred to and the need to be very careful obviously
considering removal of a juror." I don't think I've
ever removed a juror in my 21 years frankly. "And
again cites according to Brown case for the record
raises any possible that the juror's views on the
merits of the case, rather a purposeful intent to
disregard the court's instructions, underlay the
request that he be discharged, the juror must not be
dismissed.
Evidentiary standard protects not only
against the wrongful removal of jurors; it also serves
to protect against overly intrusive judicial inquiries
into substance of the jury's deliberations. A
presiding judge faced with anything but unambiguous
evidence that a juror refuses to apply the law as
instructed need go no further in his investigation of
the alleged nullification; in such circumstances, the
juror not subject to dismissal on the basis of his
alleged refusal to follow the court's instructions."
And as I said earlier they discuss what that
high asked and go to the Ginsberg goes to the Brown
case that the juror didn't like the law. The juror
said it's the way it's written and the way the
evidence has been presented.

Page 35
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

In other words, I asked this juror she said
the law and instructions governing deliberations you
cannot follow them. Could you strongly disagree. Was
that true? She said, yes. It's a life at stake.
This juror in the Brown case added the way the
evidence has been presented. And the court asked
another question, "If the law were different could you
go along with it?" He answered, "If the evidence was
entered in a fashion the way the law is written maybe
I can discharge my duties." Then the court cut him
off because the court realized he was getting into the
jury deliberations.
So he said, "I don't want to know anything
about your individual verdict or expressions. I'm
trying to find out the nature of your problem because
you've been here through the 3rd of March and haven't
missed a beat." And that was the end of the colloquy.
The circuit then set the standard as a possibility
that as an evidentiary issue and not a legal issue and
said you can't excuse him even if he said he had a
legal issue but that is an issue with the law. And
reserved whether or not constitutionally applies 23(b)
juror refusing to apply the relevant substantive law.
I think that's the point answered in the
Thomas case where they conclude an obvious violation

Page 36
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

of juror's duty to apply the law set forth by the
court constitute grounds for dismissal. But only
where the report is clear beyond doubt they find that
basically as a reasonable doubt the jury has not been
unpersuaded by the prosecution's case.
Here the record evidence is as follows and
I'm going to make findings. And that is, I'm going to
excuse Juror 0552 under 23(b) following the case law
and rule for the following reasons; they have sent no
notes out of substance only notes asking for water and
when they'll be able to go home in the evening, things
like that since the instruction of this case last
Wednesday afternoon, that the case is in its 30th day
at this time, I believe including deliberations. And
in that process this long trial they've heard a
tremendous amount of evidence and testimony. And have
been given a complex instructions and verdict form
involving a conspiracy, narcotics conspiracy of many
years in length. RICO conspiracy with multiple acts,
racketeering acts and four murders, aiding and
abetting direct involvement theories against
Mr. Wilkerson deliberated upon.
After the instructions which had been given
orally and in written form to each of the jurors they
have been deliberating as I said for three days and

9 (Pages 33 to 36)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

034

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 37
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

approximately two hours until 9:30 this morning when
the note was first sent out. It's now 12:45. The
note I've already read for the record, but I asked
this lady asked to be replaced because she strongly
disagrees with the law that govern this deliberation
and cannot follow them. No indication in that first
paragraph anything about any evidentiary concerns or
cause me to hesitate to apply the law she didn't like.
Next statement is, Because I feel so
strongly about this it may affect my decisions in this
matter. In other words, a possible bias decision.
She understands her concerns and her obligations and
is telling the court she cannot be a juror in this
case, so like voir dire in picking her she would have
been stricken for cause.
In addition, I am experiencing emotional
mental distress. I asked about that. She said the
whole case, the whole thing. This alone I felt is
enough for me to ask for replacement. I would not
replacement on the grounds at this time. I would not
be asking for this request if I didn't feel it was a
serious issue. I asked her about that she said she
did. Please take this request under strong
consideration.
Based upon her equivocal statements in her

Page 38
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

letter without any reference whatsoever to any
evidentiary concerns or the strength of the
government's evidence or the dissatisfaction with the
government's presentation of the case making her
concern about proof beyond a reasonable doubt about
her only expression is she cannot follow the law and
she disagrees with it and she reaffirmed that orally.
She was concerned about the case and concerned there
was a lot at stake and she said a life at stake. That
does not indicate to me any substantial possibility
using the language of the Brown decision or in the
Thomas case. I'm satisfied beyond a reasonable doubt
as a judge of her credibility from her statements in
the letter and her statements on the record that she
will not follow the law, that she strongly disagrees
with them and she'll not follow them contrary to her
oath of office that I had mentioned.
For those reasons under 23(b)(3), I find she
is not available for good cause and I'll strike her as
a juror in this case. Exercising as I understand it
the right that the court has recognizing that the
serious nature of this decision as I've indicated in
21 years plus that I have not excused a juror
previously for concerns about deliberations and
ability to follow the law. The rule does not provide

Page 39
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

as I have in front of me here for a substitution
necessarily.
The language behind the rule indicates that
it is better not to substitute because of various
problems that occur. That is the 11 or majority nine
or ten may have already made up their minds and it may
be pressure for one new one to come in. You come in
after the people have been operating as a unit for a
long period of time. And it puts them at a
disadvantage when they're attempting to review the
evidence and discuss it. Also the fact they must have
been tainted during their week or more that they've
been excused, the week they've been excused at this
point. So the court is not going to replace them with
another juror.
MR. GRABER: Can I be heard on that point?
THE COURT: I'll give you an opportunity.
I'm sorry.
MR. GRABER: We request that the court
invoke rule 24(c)(3).
THE COURT: Let me look at that. I didn't
have it.
MR. GRABER: 24(c)(3) which does allow for
the replacing a juror that has been discharged as an
alternate.

Page 40
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE COURT: That's the alternate jurors
where you can do it after -MR. GRABER: After deliberations.
THE COURT: Three, you're right. I'm sorry,
I misspoke. I was talking about (b) didn't have it.
It's set forth in (b), but it's set forth in (c), (c)
does have it. The court may retain alternate jurors
must assure retained juror not discuss this case until
it replaces the juror discharged. The alternate
replaces the discharged jury and begins the
deliberations and the court must instruct the jury
anew.
MR. GRABER: The perquisites of that rule
have been met. Your Honor was careful to advise the
alternates not to discuss the case and that one of
them might have to be called back. In light of the
fact that deliberations have been for three days but
no more than that we would request that the court -THE COURT: All right. You're absolutely
right, that it does provide for that. Says I can
separate the alternates or instruct them not to
discuss the case with any persons. They made replace
a regular juror which I did do when they were
discharged. I did advise them they should not discuss
it. I haven't read over whether or not I think that's

10 (Pages 37 to 40)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

035

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 41
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

an option not required. Let me look. I had just read
the notes behind 3(b) rather and 23(b) which indicated
references not to have substitutions but I did not go
to 24.
MR. GRABER: I read those notes, too. I'm
not sure -- I haven't been able to discern which came
first in terms of which rule was adopted when and the
relationship between the two. Mr. Kirschner and I
discussed this before Your Honor came in the courtroom
today whether there's any case law discussing this
sort of situation. But it is our request and my
understanding is Mr. Kirschner does not oppose it that
to bring in an alternate and instruct the jury to
begin anew.
THE COURT: That's a 1999 amendment, so it
came in after the 23 Rule obviously brought in to make
up after they had begun to allow a juror to be
stricken. They then amended the rule to bring that in
and have the alternate after some experience with the
Rule 23. I'll hear from the government again to do
that we'll have to wait discharge and have them come
back whenever you find an alternate and find what
alternate have not been compromised and have them
begin deliberations over again. They'll not be back
until next Monday. Tomorrow is a religious holiday.

Page 42
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

They had asked for that and have that off as well as
Friday because of the religious holiday and that off
as well.
MR. GRABER: If we were deeper into the
deliberations it might be more of a concern but -THE COURT: Well there's some truth to that.
It's been three days there could be you can bring
someone in and get them up to speed without being
overcome with the discussions that's gone on.
MR. KIRSCHNER: Your Honor, given that the
rule provides for it we don't oppose the defense
request.
THE COURT: I'll allow that. It's going to
cause some complications. I think what we'll have to
do is I'm going to have to call Juror 0552 in and
excuse her over objection of Mr. Wilkerson and his
counsel of record, advise her she's excused. Bring
the rest of the 11 in and tell them that we've excused
the jury, not to worry about the rationale for that,
not to reflect upon it or talk about it. And we'll be
having an alternate juror come in to deliberate.
Because of the time frame I doubt we'll get one this
afternoon and it will have to be next Monday to come
in.
I have a problem starting next week and it's

Page 43
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

going to be a serious problem for a while. Monday,
Tuesday and Wednesday are judicial conference dates.
I'm on the executive board. I'm presenting several
things to the entire conference, to the Chief Justice.
I have to be there and there's no way I can miss that.
I don't know if I can get down -- I'll look at the
schedule and see. I know Monday morning at 9:30 I
cannot be here. I've already talked to Judge Lamberth
about coming in when I was going to be gone to do
that. I'm suppose to go on vacation. I have a
nonrefundable ticket. I had talked to him about
taking over Thursday. I would be here through
Wednesday I'll have to see what we'll do about that.
And Judge Lamberth preside while I'm gone. I don't
want to have to bring in a new juror and I not be
here.
We'll make an inquiry. I'll ask the jury to
go to lunch and see if we can find the next two
alternates in line to see if they can get here this
afternoon, so I can talk to them this afternoon. I
have a matter I have to go to. If you all stay
available I'll see if we can locate the next two
alternates on the list to see if we can get the next
two in line. We're trying to get the first one if
they're available. If they aren't we'll going to the

Page 44
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

second. First alternate that is available will come
back for deliberations that has not been tainted by
anything. We'll have to question them when they get
them.
But I'll grant the motion under Rule 24 to
substitute an alternate. I'll tell the jurors to go
to lunch and after lunch the next two will be seated.
Would you bring 0552 in, please.
THE MARSHAL: Yes, Your Honor.
THE COURT: Ma'am, based upon your statement
you cannot follow the law and the instructions and you
felt so strongly about this and it would affect your
decisions, you make a bias decision I'm going to
excuse you from further service and deliberations.
It's unusual during deliberations to do this, but that
I respect your judgment that you made and this is your
decision on this. All right.
THE JUROR: Okay.
THE COURT: You don't talk to anyone about
this. The case is ongoing. There will still be
deliberations. We'll try to get an alternate in. So
you can't talk to anyone about your situation and why
you're excused or what your feelings are about the
case one way or the other until the case is completed.
All right?

11 (Pages 41 to 44)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

036

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 45
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE JUROR: All right.
THE COURT: Thank you.
THE JUROR: Thank you.
THE COURT: We'll excuse you at this time.
I'll explain to the other jurors nothing about what
you have said. I'll just say you'll no longer be with
them.
THE JUROR: Okay, thank you.
THE COURT: Okay, thank you.
MR. GRABER: Mr. Wilkerson's request would
be that whatever it's convenient to come and instruct
the jurors.
THE COURT: Hopefully I can do it this
afternoon. We'll start. Yeah, I want to do it.
MR. GRABER: It's our preference also
because Your Honor has presided over the trial though
it is a little late that if Your Honor is not in the
area that if there's a note that you try to handle
that by telephone conference call.
THE COURT: I would do that absolutely. I
would be in by phone. Wherever I am I will do that.
[Thereupon, Jury enters courtroom at 1:04
p.m.]
THE COURT: Ladies and gentlemen, thank you
for coming in and waiting for lunch for a few

Page 46
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

machines. As you see we are short one juror. I do
not want you to speculate or question why that juror
not going to be available, but she'll not be
continuing deliberations. We're going to bring an
alternate in here we hope after lunch to renew the
deliberations if we can get one here in time. But one
juror has been excused for service for her own
reasons. Do not talk about that or speculate or get
into any discussions among yourselves about that.
We're going to send you to lunch. Hopefully
you will not start deliberations until we get the 12th
juror here. Whenever we get a 12th juror here I will
give very brief instructions to you to and the 12th
juror to begin again your deliberations. We can't
help that in this circumstance unfortunately. I'm
going to ask you to go to lunch. And we'll see if
we're ready to proceed this afternoon.
If we get delayed, we'll have to begin
Monday because Thursday is a religious holiday.
Friday we will not be sitting. Hopefully we will be
able to contact the alternate and bring an alternate
juror in here. Hopefully he'll be able to do that
this afternoon. Do not deliberate until we get to 12
jurors again and do not discuss among yourselves that
we have constituted a juror. All right. Thank you.

Page 47
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

[Thereupon, Jury exits courtroom at 1:05
p.m.]
THE COURT: Just wait a minute. They want
to send a note out for something. All right. I've
got two notes. I'm not going to answer them until
after lunch. I have to look at them for a while. One
is a very detailed note all about findings they have
to make or are not on first degree, felony murders and
CCE murders, about all the RICO acts and about
vicarious liability and how it's applied. And it's a
very detailed note by the foreperson.
The second note is number seven now may I be
dismissed? No reason, no nothing. Just a handwritten
note. I'm attempted to answer that no. I don't see
any need to go into questioning. They want to come
back and give me some more details. It says, "Judge
Hogan may I be dismissed from deliberation? Juror 7."
Which is not the right juror number. I'm going answer
that one now no.
MR. KIRSCHNER: We agree the answer is no.
Even though it's some inability, it may be some
frustration. We've all been here so long, but we
would suggest to the court to answer that no.
THE COURT: All right. The second note you
can look at. We'll take a luncheon break and have you

Page 48
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

all make sure the next two alternates in line will be
called and answer it after lunch.
[Thereupon, recess taken at 1:11 p.m.,
resuming at 3:25 p.m.]
THE DEPUTY CLERK: Your Honor, returning to
the matter Criminal Record 00-157, United States
versus Larry Wilkerson. All parties are present at
this time, Your Honor.
THE COURT: Okay. Thank you. As I
understand we were able to contact one of the two
alternates next on their list. One is a man who works
at night and was not able to be located. And the
second one on our list was a woman who was located.
The marshals picked her up and is bringing her here
now. She's here now. She's arrived. What's her
number juror?
THE DEPUTY CLERK: This is juror 1973, Your
Honor. Seat number -THE COURT: Juror 1973.
THE DEPUTY CLERK: Seat 15.
THE COURT: Secondly, we have as I've
indicated a note that remained unanswered that came in
at lunch which is a long note by Juror 1748 for looks
like the foreman. Her juror instructions and there's
three parts of it. And counsel have seen it. First

12 (Pages 45 to 48)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

037

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 49
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

issue is do we respond to this note if I have an
alternate and telling them to start over their
deliberations? Tell them to start deliberations over
and if there's still a problem then ask me after
they've talked with the other jurors for a while.
I think we have to wait before I explain
that to them. I'm telling them to start over one
hundred percent. And they may still have the same
problems to answer maybe they should talk to the other
new juror for a while and then I'll get a sense. And
I'll explain that to them. In the meantime you should
look at this and see if it's fair questions.
Secondly, the government supplied, I haven't
had a chance to show defendants this, a copy of the
instructions given by Judge Lamberth when he had a
somewhat similar I think sort of different situation,
but had excused a juror during deliberations. And as
I have anticipated he instructed to began anew,
setting aside the past deliberations, disregard any
notes, if any. In other words, aiding the jury
created during the deliberations and use them. Not
talking about the evidence or anything in your own
vote records, et cetera.
He also told them the destroy their verdict
form. They all have verdict forms. They just had the

Page 50
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

one and the original copy made. I don't think that's
necessary. He explained that's the only way to do it.
Explaining to the new juror who needs to be replaced.
The other juror is being replaced and they're starting
all over. And they'll continue on at this time. And
that all the other instructions still apply. And I'm
send them back to deliberate. That means they just
start for an hour and a half or so today and then come
back on Monday. I can also advise them of that. I
can also advise them I may be in and out next week.
I'll do the best I can to be here to answer further
notes.
Is there any other suggestions on how we
should answer these suggestions?
MR. KIRSCHNER: We agree with all the
court's proposals. The only thought I have is that
you might want to ask them in the event you have
already marked up your verdict form, please give that
to the court and we'll give you a clean copy.
THE COURT: I don't want them to give it to
the court. I'd ask them to destroy it themselves,
throw it away.
MR. KIRSCHNER: That makes sense.
THE COURT: All right. Then you all should
think about answering the one note because I think it

Page 51
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

has a couple of good questions. There's one note I'd
like input on. All right. Would you bring this
alternate in and we'll explain to her make sure she's
here and available to start this afternoon and come
back next Monday for her schedule effect.
THE MARSHAL: Juror 1973, Your Honor.
THE COURT: Good afternoon.
THE JUROR: Good afternoon.
THE COURT: Ma'am, you're known as 1973.
We've had an occasion as I said at the time we
released the alternates that we've asked you to keep
in the same state of knowledge that you have, not to
discuss this case with anyone or let anyone discuss it
with you in the event there was an emergency and we
needed to call you all back and one of you had to
serve. We were able to locate you when we had a
deliberating juror became unavailable. It just
happened. So I've got a couple of questions for you
for the record. And one is: Are you in the same
state of knowledge as when you left? That is, you
haven't discussed the case or read about it or had any
contact with anybody connected with the case?
THE JUROR: No, I haven't. I'm in the same
state.
THE COURT: Same state of knowledge. Are

Page 52
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

you available because the court needs you this
afternoon for an hour or so? And after that we would
not be sitting again until next Monday so you could
make some arrangements on your schedules. The reason
is tomorrow is a religious holiday, Rosh Hashanah for
some people and you've not been sitting on Fridays.
THE JUROR: Yes, I am available.
THE COURT: You're confident you could go
back into your mode that you were in here earlier as a
sitting juror and deliberate fairly and impartially on
this case and the evidence that you've heard in this
court?
THE JUROR: Yes, Your Honor.
THE COURT: What I will be doing is
instructing the jury to start over again. They can't
decide on there. You would have to start all over
again. They would have to start just like the first
time they walked in the jury room, so you'd be in the
same position as the others so you would have an
opportunity to deliberate and to participate fully in
the deliberations starting anew. And wouldn't feel
they've already reached certain verdicts. I don't
know what they've done. You'd be free to exercise
your own judgment on the instructions as I've given
them to you. All right?

13 (Pages 49 to 52)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

038

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 53
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE JUROR: Yes.
THE COURT: Thank you for your willingness
to help out in this situation. That's why we have
alternates. What I'm going to do is have the other
jurors come back. You would be sitting -- let the
other jurors come in and I'll place you in the right
seat you'll become known as that juror number whatever
the number is. Thank you.
[Brief pause.]
[Thereupon, Jury enters courtroom.]
THE COURT: All right. Ladies and
gentlemen, good afternoon. After our break you
understand what happened earlier. And I explained to
our alternate juror, the number juror nine has been
excused by the court and she's now going take the seat
of number nine and become a deliberating juror.
Now once again the reasons for the excusal
are not relevant to your deliberations. You're not to
speculate about the reasons for the excusal of the
other juror. This alternate juror will become a
member of the deliberating jury. And she was an
alternate and has been away, but has informed us she's
had no discussions about the case or talked to anyone
about the case, hadn't heard anything about it during
her absence. She'll be now seated as juror number

Page 54
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

nine for the remaining of the deliberations. So her
state of knowledge is the same as it was as you had at
the end of the closing arguments and the final
instructions so she's a fully qualified juror.
However that means to be fair you must begin
your deliberations all over. You must begin anew as
if you haven't deliberated yet, just like the first
time. That means I recognize that causes some delay
but cannot be avoided, a fair and impartial decision
made in this case. You should set aside and disregard
your past deliberations, discussions and votes, if
any. Disregard notes and aids you've made created
during the deliberations not the other ones you made
during the trial. In other words, if you've got a
couple of verdict forms and recorded something in the
verdict forms I want those torn up and we'll give you
new verdict forms.
You'll begin your deliberations afresh as if
you'd just never discussed the case among yourselves
at all because it's the only fair way when we have a
new alternate that enters the case like this. New
member of the Jury that has the benefit of all the
discussions as if she's been a deliberating juror for
the first time and you begin your deliberations anew,
so she's not faced with you all having some, arrived

Page 55
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

at some decision, being cold and not having a chance
to deliberate. So the jury has the full chance to
participate and deliberate all over again.
Number nine you're replacing the
deliberating juror has been excused. The reasons
again are not relevant. You yourself are not to
speculate as to why you joined the deliberating jury
and what happened to the other jurors. The eleven
jurors you're now joining have been instructed to
deliberate anew as if they're deliberating for the
first time. You're instructed to enter the
deliberations as if the jury were just beginning to
deliberate for the first time in the case as it is for
you.
Now the only other instructions I've got for
you really is that if you would tear up those verdict
forms I'll give you a couple of new ones if you need
them and tear, shred them very carefully, please. We
don't want anyone to look at those. Now the other
instruction again is we don't go out and talk about
this case with anyone or let anybody talk to you about
or read about it or carried in the press. It would
cause us difficulties. It's especially important now
that you follow the instructions. Set the newspaper
aside if it covers this case or look at the TV if

Page 56
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

there's any media reports of it.
The court schedule is such we have already
planned to have a religious holiday tomorrow, so
you'll not be sitting on tomorrow and on Fridays
you'll not be sitting. You'll not be sitting after
today. Next Monday is the Judicial Conference of the
United States. I'm on the Executive Committee of that
conference. I give reports to the Chief Justice and
other members of the conference. And it's our budget
for the next year. And I'm very much involved in our
budget which is very poor. We're having a real hard
time. And we'll be rifting people, so I have to be
there.
I'll be in and out as I may be available if
have you other notes and other matters to discuss. It
may be a time when I ask another judge to take my
place if you desire to work out the questions with the
lawyers and still handle the case. It's not that I'm
not interested or concerned about you. There are some
commitments on my time and I can't avoid it.
You also have another note pending with
several questions. Because we're adapting, starting
over again, I'd like you first to go back and begin
your review of the evidence again and discussions
again. And then if this note still needs answering

14 (Pages 53 to 56)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

039

Cathryn Jones, RPR
Official Court Reporter

United States of America v.
Larry Wilkerson

CR 00-157
Gray III

September 15, 2004
Volume 33

Page 57
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

after you've started your deliberations and gone
through it we'll keep the note and let us know and
we'll address the note. It's in fairness to the new
sitting juror we need to have you start over again.
If it becomes a problem you're welcome to
ask this original note the foreperson sent out or
write a different note or just indicate you want this
note still needs to be responded to. But I told
counsel since you're starting over I'll hold the note
for now. We will answer if it becomes later. You
have to start your deliberations and get to a point
where this note may be necessary.
All right. Let me ask counsel if you'll
like to cover anything else before you send them back.
Anything else?
MR. KIRSCHNER: No, Your Honor.
MR. GRABER: No, Your Honor.
THE COURT: Ladies and gentlemen, again I
thank you for your services so far. I'll ask you to
go back and resume anew your deliberations at this
time with the new juror. And if it's about anything
I've just said -- if it's about a scheduling policy I
can talk to you.
THE JUROR: It's about something you said
just now about a procedure.

Page 58
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE COURT: You can write a note if you need
to. It's better for counsel to hear and talk to me
about it. But if it's scheduling I can tell you right
now. In any event, we'll sit for the rest of the day
and we'll be back at the ordinary time. Thank yo very
much. You're excused.
[Thereupon, Jury exits courtroom at 3:35
p.m.]
MR. KIRSCHNER: There was another juror who
was indicating to the marshal she was about to write
you another note besides the -THE COURT: I'll just step out for a one
second. I'm just going to get a new verdict form.
We'll be right back.
[Thereupon, proceedings recessed at 3:35
p.m.]

Page 59
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

CERTIFICATE
I, Cathryn J. Jones, an Official Court
Reporter for the United States District Court of the
District of Columbia, do hereby certify that I
reported, by machine shorthand, the proceedings had
and testimony adduced in the above case.
I further certify that the foregoing 58
pages constitute the official transcript of said
proceedings as transcribed from my machine shorthand
notes.
In witness whereof, I have hereto subscribed
my name, this the 17th day of September, 2004.

OFFICIAL COURT REPORTER

15 (Pages 57 to 59)
United States District Court washcathryn@aol.com
For the District of Columbia
202-289-8333

040

Cathryn Jones, RPR
Official Court Reporter

TABLE IDENTIFYING WILKERSON’S
REQUESTS FOR LIMITED VOIR DIRE

Juror Hearing Excerpt

Transcript Page (9/15/04am)
Appendix Page

(“... at minimum the court should voir dire the
juror to find out whether or not this is an
evidentiary at all based concern.”

9/15/04am: 7
App. 27

(noting that during jury selection, after Juror
0552 made remarks evidencing concerns about
instances where people had been wrongly
convicted, the AUSA asked her questions and
the juror indicated she could follow the
evidence and the law and be fair to both sides
(citing Tr. 7/16/04am:106-07).

9/15/04am: 9
App. 28

GRABER noting, that, in [U.S. v. Brown , 823
F.2d 591 (D.C.Cir.1987)]“as the Court was
talking to the jury it came out that there was an
evidentiary basis for [Spriggs’s concerns]
which, I think is why the court should inquire
of the juror”

9/15/04am: 9
App. 28

GRABER: “in light of that ... the court should
voir dire the juror and determine if her problem
is based on the facts as the law applies to those
facts...”

9/15/04am: 11;
App. 28

GRABER: “So I think the court should voir
dire this juror in a careful way.... so we can
make a determination if there’s any evidentiary
basis whatsoever and the juror should continue
to sit is our view.”

9/15/04am: 14
App. 29

041

Juror Hearing Excerpt

Transcript Page (9/15/04am)
Addendum Page

AFTER JUROR INDICATES HER
EMOTIONAL DISTRESS IS BASED NOT
“JUST BECAUSE OF DELIBERATIONS”
BUT BECAUSE OF “THE WHOLE CASE”

See 9/15/04am: 25-27;
App. 32

Graber: “In light of the Second Circuit decision
[in [U.S. v. Thomas, 116 F.3d 606, 621 (2d
Cir.1997)] that Your Honor was just reading I
think there should be at least one question
about whether she has some difficulty with
whether the evidence is sufficient.

9/15/04am: 25
App. 32

“She also said she had the problem with the
whole case. And our view is that that’s
indicating that she’s got a problem with some
of the facts and certainly the law applies to the
facts. Our view is that there has to be some
question framed in some way to find out if part
of the problem is having to do with whether the
evidence in the case ... the whole point [in
Thomas, at 621] is if it’s at all a fact based sort
of concern than Mr. Wilkerson has a right to
that juror. [U.S. v. Thomas, 116 F.3d 606, 621
(2d Cir.1997)] And ... even if it’s total law
based, he still under the Sixth Amendment has
a right to that juror.” (Graber further notes that
this Circuit has left open the question of
dismissal solely on nullification grounds).

9/15/04am: 29;
App. 33

042

Juror Hearing Excerpt

Transcript Page (9/15/04am)
Addendum Page

GRABER:
9/15/04am: 30;
“But unless there’s actual evidence of juror
App. 33
misconduct I don’t think she can be excused
without compromising Mr. Wilkerson’s right to
a unanimous jury under the Sixth Amendment.”
“But in addition to that, what the Thomas case 9/15/04am: 30;
is saying [is] that there must be at least enough App. 33
of a questioning to determine whether it is at all
an evidence-based concern. And simply asking
if she has problems with the law is not
sufficient to get that out from the juror. She did
say she had a problem with the whole case.”
GRABER ((indicating “sensitivity” to concern
9/15/04am: 31;
about probing into deliberative process):
App. 33
“but it seems there needs to be some question
that can be phrased the way it doesn’t ask her to
reveal the deliberative process that ask[s]
whether any part of her problem has to do with
the sufficient -- the evidence.”
GRABER (after again reading a quote from
Thomas [116 F.3d at 621]:
“it seems like some sort of a question even if
it’s a yes or no question like is it the
instructions in general or the instructions as
applied to this situation or as applied to the
evidence in this case that’s causing you
difficulty?”

043

9/15/04am: 32-33;
App. 33-34

044

045

046

047

048

049

